<html>
<title> - CORPORAL PUNISHMENT IN SCHOOLS AND ITS EFFECT ON ACADEMIC SUCCESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                   CORPORAL PUNISHMENT IN SCHOOLS AND
                     ITS EFFECT ON ACADEMIC SUCCESS

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 15, 2010

                               __________

                           Serial No. 111-55

                               __________

      Printed for the use of the Committee on Education and Labor




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html







                  U.S. GOVERNMENT PRINTING OFFICE
55-850 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                Barrett Karr, Republican Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Carol Shea-Porter, New Hampshire     Howard P. ``Buck'' McKeon, 
Paul Tonko, New York                     California
Jared Polis, Colorado                Brett Guthrie, Kentucky
George Miller, California            David P. Roe, Tennessee
Judy Chu, California                 Glenn Thompson, Pennsylvania











                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 15, 2010...................................     1

Statement of Members:
    Guthrie, Hon. Brett a Representative in Congress from the 
      State of Kentucky..........................................     4
        Prepared statement of....................................     5
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities...................................     1
        Prepared statement of....................................     3
        Additional statements:
            The American Academy of Pediatrics...................    46
            The Dignity in Schools Campaign......................    48
            Sean Faircloth, Executive Director, Secular Coalition 
              for America........................................    51
    Platts, Hon. Todd Russell, Senior Republican Member, 
      Subcommittee on Healthy Families and Communities, prepared 
      statement of...............................................     5
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia, questions for the record.......    52

Statement of Witnesses:
    Frieler, Jana, principal, Overland High School, Aurora, CO; 
      President-Elect, National Association of Secondary School 
      Principals.................................................    15
        Prepared statement of....................................    17
        Responses to questions for the record....................    53
    Gilbert, Wynell, teacher, Erwin High School, Center Point, AL    20
        Prepared statement of....................................    23
        Responses to questions for the record....................    53
    Greydanus, Dr. Donald E., M.D., professor of pediatrics & 
      human development, Michigan State University College of 
      Human Medicine; pediatrics program director, Michigan State 
      University/Kalamazoo Center for Medical Studies............     7
        Prepared statement of....................................     9
        Responses to questions for the record....................    59
    Pee, Linda, mother of student who received corporal 
      punishment.................................................    25
        Prepared statement of....................................    27
        Additional submissions:
            Responses to questions for the record................    53
            Prepared statement of the American Civil Liberties 
              Union and Human Rights Watch.......................    55
            ``A Violent Education: Corporal Punishment of 
              Children in U.S. Public Schools,'' a report by the 
              ACLU and Human Rights Watch, Internet address to...    58
            ``Impairing Education: Corporal Punishment of 
              Students With Disabilities in U.S. Public 
              Schools,'' a report by the ACLU and Human Rights 
              Watch, Internet address to.........................    58

 
   CORPORAL PUNISHMENT IN SCHOOLS AND ITS EFFECT ON ACADEMIC SUCCESS

                              ----------                              


                        Thursday, April 15, 2010

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Scott, Shea-Porter, 
Polis, Platts, and Guthrie.
    Staff present: Andra Belknap, Press Assistant; Calla Brown, 
Staff Assistant, Education; Jody Calemine, General Counsel; 
Denise Forte, Director of Education Policy; Ruth Friedman, 
Senior Education Policy Advisor (Early Childhood); David 
Hartzler, Systems Administrator; Sadie Marshall, Chief Clerk; 
Meredith Regine, Junior Legislative Associate, Labor; 
Alexandria Ruiz, Staff Assistant; Kim Zarish-Becknell, 
Education Counsel, Subcommittee on Healthy Families; Stephanie 
Arras, Legislative Assistant; Kirk Boyle, General Counsel; 
Allison Dembeck, Professional Staff Member; Alexa Marrero, 
Communications Director; Brian Newell, Press Secretary; Susan 
Ross, Director of Education and Human Resources Policy; Mandy 
Schaumburg, Education Policy Counsel; and Linda Stevens, Chief 
Clerk/Assistant to the General Counsel.
    Chairwoman McCarthy [presiding]. A quorum is present. The 
hearing of the House Committee on Education and Labor, Healthy 
Families and Communities Subcommittee, on ``Corporal Punishment 
in Schools and Its Effect on Academic Success'' will come to 
order. Before we begin, I would like everyone to take a moment 
to ensure that your cell phones and your BlackBerries are off.
    I now recognize myself, followed by Mr. Guthrie from 
Kentucky, for an opening statement.
    First, I would like to thank all of our witnesses for being 
here today. We have assembled a very knowledgeable group. They 
bring their personal experience and a wealth of information 
from research and work in the field.
    Congress has not held a hearing on the use of paddling in 
schools since 1992. Corporal punishment refers to the 
application of physical pain as a method of behavior change. We 
are not talking about situations where a school official may 
need to restrain a student, nor are we talking about using 
physical force as a means of protecting members of the school 
community subject to danger.
    Ohio is the most recent state to ban this practice last 
summer, but corporal punishment is still legal in 20 states. 
According to data collected by the U.S. Department of 
Education's Office of Civil Rights, the use of paddling in 
schools has dropped each year, but there are still hundreds of 
thousands of students who are paddled. The most recent OCR data 
is from the 2006-2007 school year, which indicates that over 
223,000 students were paddled in our nation.
    The OCR data also indicates that minority students and 
students with disabilities are paddled at higher rates. The 
most recent available statistics show that African American 
students are subjected to physical punishment at school at 
about twice the national rate. Schoolchildren with disabilities 
are also subject to corporal punishment at a disproportionately 
high rate, approximately twice the rate of the general student 
population in other states. Kindergarten through 8th grade 
students are more likely to be paddled than high school 
students.
    The Department of Education data may be under-counting, 
since they only record how many students are paddled, not how 
many times a student is paddled. So if a particular student is 
paddled multiple times, it counts as one paddling.
    Students are typically hit on their buttocks with a wooden 
paddle, approximately 15 inches long, between two and four 
inches wide and one-and-a-half inch thick, with a six-inch 
handle at the end. The size of paddles may vary, but I have 
here a paddle, and this is what it looks like.
    This particular paddle was sent to us from a gentleman in 
Texas, Jimmy Dunne, who over 20 years ago started fighting 
against paddling in school. I thank you for sending that. And 
as you can see, a lot of people, when they think of paddling, 
they think of the old ping-pong paddle, or they think of 
possibly a paddle with the ball in the end and going back and 
forth.
    When a student is paddled, typically he or she will be told 
to stand with their hands on a desk or a chair, so the student 
is bent over, and the student is paddled on the buttocks. 
Sometimes paddlings occur in an office. Other times it will be 
more public settings, in full view of the student's classmates.
    Most students are paddled for minor infractions, violating 
a dress code, being late for school, talking in class or in the 
hallway, or being disrespectful. In some school districts 
parents can opt-out of having their children paddled, but 
unfortunately, there are reports of parents' wishes being 
ignored, which can be very hard to prove.
    As we will hear today, researchers, principals and teachers 
say paddling is not an effective discipline tactic. Paddling 
can cause immediate pain, lasting physical injury, and ongoing 
mental distress. We will also hear that paddling causes lower 
school achievement, antisocial behavior, and a tendency for 
school avoidance, and school dropout.
    In our committee we spend a great deal of time talking 
about the best ways to help our students achieve better success 
in. How can we talk about safety in schools and not bring 
sanctioned hitting of our students into the conversation?
    The leading Supreme Court case on corporal punishment in 
schools is the Ingraham case, which was decided over 30 years 
ago. This was at a time when only two states had banned 
corporal punishment and when the social science disfavoring 
corporal punishment was not as compelling as it is today.
    The federal government has outlawed physical punishment in 
prisons, jails and medical facilities, yet our children sitting 
in a classroom are targets for getting hit. We know safe, 
effective, evidence-based strategies are available to support 
children who display challenging behaviors in school settings.
    Hitting children in school does not help them achieve 
academic success. Hitting children in schools is not an 
effective discipline tactic. Hitting children in school does 
not make them feel safe in school. Instead, they feel 
humiliated, helpless, depressed, and angry. Hitting children 
teaches them that it is not a legitimate way to handle 
conflict.
    We are adults. We shouldn't be hitting kids in schools. 
Instead, we, as a nation, should move toward these positive 
strategies when it comes to our school children. It has been 
150 years since the first state banned this practice in 
schools. Since then, 29 states have done the same, but it is 
still occurring every day in our nation, and we still have 
hundreds of thousands of students being hit in our schools 
today.
    Soon I will introduce legislation on this issue to end 
paddling in schools, which I will urge my colleagues to 
support. I look forward to hearing from our witnesses.
    Now I would like to recognize Mr. Guthrie from Kentucky for 
his opening statement.
    Mr. Guthrie?
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    First, I would like to thank all of our witnesses for being here 
today.
    We have assembled a very knowledgeable panel.
    They bring their personal experiences and a wealth of information 
from research and work in the field.
    Congress has not held a hearing on the use of paddling in schools 
since 1992.
    Corporal punishment refers to the application of physical pain as a 
method of behavior change.
    We are NOT talking about situations where a school official may 
need to restrain a student.
    Nor are we talking about using physical force as a means of 
protecting members of the school community subject to danger.
    Ohio is the most recent state to ban this practice last summer, but 
corporal punishment is still legal in 20 states.
    According to data collected by the U.S. Department of Education's 
Office of Civil Rights the use of paddling in schools has dropped each 
year, but there are still hundreds of thousands of students who are 
paddled.
    The most recent OCR data is from the 2006-2007 school year, which 
indicates that over 223,000 students were paddled in our nation.
    The OCR data also indicates that minority students, and students 
with disabilities are paddled at higher rates.
    The most recent available statistics show that African American 
students are subjected to physical punishment at school at about twice 
the national rate.
    Schoolchildren with disabilities are also subjected to corporal 
punishment at disproportionately high rates, approximately twice the 
rate of the general student population in some States.
    Kindergarten through 8th grade students are more likely to be 
paddled than high school students.
    The Department of Education data may be under counting since they 
only record how many students are paddled, not how many times a student 
is paddled.
    So if a particular student is paddled multiple times, it counts as 
one paddling.
    Students are typically hit on their buttocks with a wooden paddle, 
approximately 15 inches long, between two and four inches wide, and 
one-half inch thick, with a six-inch handle at one end.
    The size of paddles can vary, but I have one here and this is what 
they look like.
    When a student is paddled, typically he or she will be told to 
stand with their hands on a desk or a chair, so that the student is 
bent over, and the student is paddled on the buttocks.
    Sometimes paddlings occur in an office other times it will be a 
more public setting, in full view of the student's classmates.
    Most students are paddled for minor infractions, violating a dress 
code, being late for school, talking in class or in the hallway, or 
being ``disrespectful.''
    In some school districts parents can ``opt-out'' of having their 
children paddled, but unfortunately, there are reports of parents' 
wishes being ignored which can be very hard to prove. As we will hear 
today, researchers, principals and teachers say paddling is not an 
effective discipline tactic.
    Paddling can cause immediate pain, lasting physical injury, and on-
going mental distress.
    We will also hear that paddling causes lower school achievement, 
antisocial behavior, tendency for school avoidance, and school dropout.
    In our Committee we spend a great deal of our time talking about 
the best ways to help our students achieve better success in schools 
and this practice is not one of them.
    How can we talk about safety in schools and not bring sanctioned 
hitting of our students into the conversation?
    The leading Supreme Court case on corporal punishment in schools is 
the Ingraham case which was decided over 30 years ago.
    This was at a time when only two states had banned corporal 
punishment, and when the social science disfavoring corporal punishment 
was not as compelling as it is today.
    The federal government has outlawed physical punishment in prisons, 
jails and medical facilities.
    Yet our children sitting in a classroom are targets for hitting.
    We know safe, effective, evidence-based strategies are available to 
support children who display challenging behaviors in school settings.
    Hitting children in school does not help them achieve academic 
success.
    Hitting children in school is not an effective discipline tactic.
    Hitting children in school does not make them feel safe in school.
    Instead, they feel humiliated, helpless, depressed, and angry.
    Hitting children teaches them that it is a legitimate way to handle 
conflict.
    We are adults.
    We shouldn't be hitting kids in schools.
    Instead, we, as a nation, should move toward these positive 
strategies when it comes to our school children.
    It has been a hundred and fifty years since the first state banned 
this practice in schools.
    Since then, 29 states have done the same.
    But it is still occurring every day in our nation and we still have 
hundreds of thousands of students being hit in our schools.
    Soon I will introduce legislation on this issue to end paddling in 
schools which I will urge my colleagues to support.
    I look forward to hearing from our witnesses.
                                 ______
                                 
    Mr. Guthrie. Thank you, Madam Chair, and good morning.
    We are here today to examine corporal punishment in schools 
and its effect on academic success. We will look not only at 
questions of how corporal punishment is currently used in some 
states and schools, but also broader issues such as the 
definition of what constitutes corporal punishment.
    We have a distinguished panel of witnesses. And I believe 
Center Point--I was born near Center Star, Alabama, but I am 
not sure exactly where Center Point is--probably the center of 
the state, but I saw that looking forward to the hearing in my 
birth state. We have a distinguished panel of witnesses here 
today and help for the discussion.
    And Representative Platts couldn't be here today. He is the 
ranking member of the subcommittee. He will be inserting his 
full opening statement into the record.
    And with that, I look forward to hearing from our witnesses 
and the testimony examining these issues more closely, and 
thank you. And I yield back.
    [The statement of Mr. Guthrie follows:]

Prepared Statement of Hon. Brett Guthrie, a Representative in Congress 
                       From the State of Kentucky

    Thank you Madam Chair, and good morning. We're here today to 
examine corporal punishment in schools and its effect on academic 
success. We'll look not only at questions of how corporal punishment is 
currently used in some states and schools, but also broader issues such 
as the definition of what constitutes corporal punishment.
    We have a distinguished panel of witnesses here today to help 
inform the discussion, and I thank them for joining us. Rep. Platts, 
the Ranking Member of this subcommittee, will be inserting his full 
opening statement into the hearing record. With that, I look forward to 
hearing from our witnesses and examining these issues more closely. 
Thank you, and I yield back.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Guthrie.
    Pursuant to committee rule 7C, any member may submit an 
opening statement in writing at this time, which will be made 
part of the permanent record. Without objection, all members 
will have 14 days to submit additional materials or questions 
for the hearing record.
    [The statement of Mr. Platts follows:]

    Prepared Statement of Hon. Todd Russell Platts, Ranking Member, 
            Subcommittee on Healthy Families and Communities

    Good morning and welcome to our hearing. Today we will bring 
together experts to discuss the effects of corporal punishment on 
students' academic success.
    When parents send their children off to school in the morning, we 
do so with the expectation that they will be in a safe environment and 
disciplined in a manner that is conducive to emotional and academic 
growth and achievement. Most of us can agree that corporal punishment--
broadly defined as any punishment in which physical force is used to 
cause some degree of pain and discomfort--does not have a place in our 
schools.
    The majority of states have recognized this, including my home 
state of Pennsylvania, and have banned the practice of corporal 
punishment in schools. These policies have been highly successful in 
the dramatic decrease of corporal punishment instances in our Nation's 
schools. The voluntary implementation of a ban in thirty states has 
resulted in an 85% decrease in the number of students who experience 
some degree of corporal punishment.
    As is always central to our work on this subcommittee, it is 
important that we understand the academic influence of corporal 
punishment. Given the limited research on its effects on a student's 
academic performance, I very much look forward to hearing our 
witnesses' testimonies today. Thank you, Chairwoman McCarthy.
                                 ______
                                 
    Chairwoman McCarthy. I would like to briefly introduce our 
very distinguished panel of witnesses here with us this 
morning. The complete bios of the witnesses will be inserted 
into the record. Today we will hear from four witnesses.
    And I want to thank you all again for traveling from all 
parts of the country to be with us here today.
    In the interest of time, given the large number of 
witnesses today, I will keep my formal introductions short. Our 
first witness is Dr. Donald Greydanus.
    He is a professor of pediatrics and human development at 
Michigan State University College of Human Medicine and 
director of the pediatrics residency program at Michigan State 
University. He received an M.D. degree from the College of 
Medicine and Dentistry of New Jersey and a fellowship in 
adolescent medicine from New York University School of Medicine 
and Bellevue Hospital Center.
    He has published extensively on adolescent health and has 
35 years of clinical and research work in caring for children 
and adolescents. In 2010 he received the Outstanding 
Achievement in Adolescent Medicine Award from the Society for 
Adolescent Medicine as a leading force in the field of 
adolescent medicine and health.
    Welcome, Doctor.
    Our next witness is Jana Frieler.
    Mr. Polis from Colorado will introduce this witness.
    Mr. Polis. Thank you, Madam Chair.
    It is my honor to introduce Jana Frieler. Jana Frieler has 
been in education for 23 years, including 14 years as a school 
administrator. She is currently the principal of Overland High 
School in Aurora, Colorado, where she has served since 2005. 
She is the daughter of a high school principal, and she 
followed her father's footsteps and received a bachelor's 
degree in Spanish and secondary education from the University 
of Northern Colorado and a master's degree in instructional 
leadership from Colorado State University.
    Since becoming a principal, Frieler has been recognized 
frequently for her outstanding leadership, and she earned the 
title of Colorado's Assistant Principal of the Year in 1999. In 
February of 2009, She became president-elect of the National 
Association of Secondary School Principals. That is for next 
year. Frieler has been a member of the National Association of 
Secondary School Principals since 1996 and has served on 
several committees for them since she joined their board of 
directors in 2005. She is also on the board of the Colorado 
Association of Secondary School Principals for 10 years.
    Yield back.
    Chairwoman McCarthy. Thank you, Mr. Polis.
    Our next witness is Ms. Wynell Gilbert. Ms. Gilbert 
received her B.S. degree in biology from Alabama A&M University 
in 1997, her M.S. degree in biology education from Alabama 
State University in 2002, and her educational leadership 
certification from Samford University in 2008. She is a 
national board certified teacher in the area of adolescent and 
young adult science. She is currently a high school teacher at 
Erwin High School at Center Point, Alabama, and has taught in 
the Jefferson County school district for 12 years.
    She is a national trainer for education research and 
dissemination, in which she has been given the opportunity to 
train teachers on using effective teaching strategies to 
improve student learning. Currently, she serves on the 
executive board of the Jefferson County American Federation of 
Teachers.
    Our final witness----
    Welcome.
    Our final witness is Ms. Linda Pee. She is from Hot 
Springs, Arkansas, and is a parent of a daughter who was 
paddled in school. She will discuss her experiences with the 
paddling system in schools.
    I want to say welcome to all of you, and I thank you for 
that. For those of you who have not testified before Congress, 
let me explain the lighting system. When you start speaking, a 
green light will go on. When you have a minute left, a yellow 
light will go on. When the red light goes on, we ask you to 
finish up your thought or answer to a question. And please be 
certain as you testify, to turn on and speak into the 
microphones in front of you.
    We will now hear from our first witness.
    Doctor?

    STATEMENT OF DONALD GREYDANUS, M.D., PEDIATRICS PROGRAM 
   DIRECTOR, MICHIGAN STATE UNIVERSITY/KALAMAZOO CENTER FOR 
                        MEDICAL STUDIES

    Dr. Greydanus. Good morning, Chairwoman McCarthy and 
members of this committee. It is my distinct honor to be here. 
This is the second time my government has called me to help. 
The first time was almost 40 years ago when you called me into 
the Vietnam War as a physician, and it was an honor to go then, 
and it is an honor to be here this morning as a private 
citizen.
    I am a professor of pediatrics and human development at 
Michigan State University. I have studied the issue of violence 
in children and adolescents for over 35 years. I have 
researched it, and I am happy to give you not only my views, 
but that of the research which has been done over the past 
several decades.
    First, the definition. It is important for you to realize 
that corporal punishment refers to the intentional application 
of physical pain to the child in an attempt to change their 
behavior. It is not just paddling. It includes hitting, 
slapping, spanking, paddling, use of belts, use of sticks, 
pins, placing kids in painful body postures, not letting them 
move, not letting them urinate, applying electrical shock, a 
whole variety of ingenious methods. When someone is angry at 
someone, they come up with a variety of methods.
    It is also important, I think, for the members to 
understand we are not talking about defending oneself and 
school if a student becomes violent. We are talking about the 
application of physical pain by the school officials to that 
child in an attempt to change their behavior.
    In spite of many national groups, education, civil rights 
and medical groups, asking for the ban of corporal punishment, 
it continues to exist in 20 states in our country. We are one 
of the few industrialized countries that allows this behavior 
to our children.
    Experts note that there are about 1.5 million cases of 
physical punishment occurring, as you noted in your remarks, 
Chairwoman McCarthy. We don't really know exactly how many, and 
it depends upon how this is counted. Some experts suggest as 
many as 3 million cases. It is several million which occur. 
This results, from a medical viewpoint, in up to 20,000 
children who seek medical attention because of injuries. 
Instead of putting the kids into school, it keeps them out of 
school for days, weeks, even months.
    Now, why not allow local control of this? Well, there are a 
few things to keep in mind. One is that the current studies 
suggest that this occurs more often in the rural population 
than in the urban population, kindergarten through eighth 
grade, as you mentioned, versus the high school, but it occurs 
throughout these grades.
    It occurs more often to the disadvantaged, to the non-
Caucasian individual, to the African-American, to the Hispanic 
than to middle-class or upper-class Caucasian individual, but 
it can occur through all groups. The research also shows that 
the lowest incidence of this occurs in the states and school 
districts that have simply said, ``Enough--no hurting of our 
children,'' and have banished this.
    Now, the advocates of this have said over the years this is 
an effective form of changing child misbehavior. The testimony 
I leave for you, my extensive testimony, reviews the literature 
for you, the research that we and others have done. And the 
vast majority of the literature shows it is an ineffective 
method of correcting child misbehavior. It simply doesn't work. 
And it has major deleterious effects physically and mentally on 
these children to whom you inflict physical pain.
    Students are hurt, and we have many reports of abrasions, 
severe muscle injuries, hematomas, kids who have whiplash 
injury. We have even had kids who have died because of this 
mistreatment.
    There is also no evidence that punishment leads to improved 
control in the classroom. The literature suggests and shows the 
opposite is true. Children do not develop improved moral 
character. They do not increase the respect for teachers. They 
do not develop enhanced controls. In fact, the research is very 
clear that the opposite is occurring.
    These kids become victimized. They have trouble sleeping. 
They develop sadness. They develop feelings of worthlessness, 
suicidal thoughts. They become more violent, more aggressive, 
angry. This committee is looking at school achievement. They 
develop school dysfunction. They develop lower school 
achievement. They have a tendency towards school avoidance. 
They drop out of school. They become malingerers. They develop 
recidivism.
    You create, Madam Chairwoman, a paralysis of fear in the 
classroom--not just the kids that are physically hit and hurt, 
but the witnesses. Everyone in the classroom becomes afraid. 
Children are victims. Children become full of trepidation, and 
it completely destroys the positive atmosphere that education 
is important. In order for a teacher to help its students, you 
need a positive atmosphere. And the fear of being hit or being 
hit leads to the opposite.
    Use of corporal punishment in the schools, and the 
literature on this is quite clear, falsely and perfidiously 
reinforce this physical aggression as an acceptable and 
effective means of eliminating what someone thinks is unwanted 
behavior in the classroom and in society. The research shows 
very clearly it is ineffective. It is dangerous. Teachers and 
principals can learn and should learn nonviolent means of 
classroom control.
    In conclusion, I come to you on several levels. I am a 
father of four daughters. I am a grandfather of five children. 
I am a professor. I am a researcher. I am a Navy veteran, a 
doctor who served in the war. I urge you on multiple levels, 
look at the evidence that is in the research. It is very clear.
    This is a rare case in my clinical experience where the 
emotions and the research agree, where intuitively you think 
hurting someone will improve them, and in fact the opposite 
occurs. The research shows there is no evidence that such 
punishment improves classroom control. It has major physical 
and mental impact upon our children. It doesn't improve the 
classroom. If you are looking at success in the classroom, it 
does the opposite.
    If I could put next to me the children from the time this 
country was founded in 1776 'til today, I could put them right 
there, and all the children who have been hit and witnessed, 
they would say to you, ``Please stop hitting us. We want to 
learn.'' And they would advocate for the children who are now 
in school today in this country and the children who will be, 
the millions of children who will be in school over this coming 
century.
    They would plead with you, ``Don't hit us. Don't slap us, 
spank us, punch us, kick us, pinch us, shake us. Please don't 
choke us. Please don't hit us with paddles and belts and sticks 
and pins. Please don't put us in closed spaces and hurt us. 
Please don't use electric shock on us. Please don't give us 
excessive exercise drills. Please help us.''
    So on multiple levels, both research and as a private 
citizen, I urge you, please, committee, protect our children 
and give the teachers the skills they need. And if you want 
improvement in the schoolroom, this is the place to start.
    In closing, I am very honored to be here. And if you have 
questions in this regard, I am more than happy to answer them. 
Thank you very much.
    [The statement of Dr. Greydanus follows:]

Prepared Statement of Donald E. Greydanus M.D., Professor of Pediatrics 
    & Human Development, Michigan State University College of Human 
   Medicine; Pediatrics Program Director, Michigan State University/
                  Kalamazoo Center for Medical Studies

    Good morning Chairwoman McCarthy and Members of the Committee. 
Thank you for inviting me to testify on corporal punishment in schools 
and its effect on children. It is my distinct honor to speak with you 
today. I am Donald E. Greydanus, a pediatrician, and Professor of 
Pediatrics & Human Development at Michigan State University as well as 
Pediatrics Program Director at the MSU/Kalamazoo Center for Medical 
Studies in Kalamazoo, Michigan. In my testimony I draw on the research 
in this area as well as more than 35 years of my clinical and research 
work in caring for children and adolescents. One focus of my research 
and clinical work has been on violence and its effect on our children 
and adolescents.
Definition of Corporal Punishment
    Corporal punishment refers to intentional application of physical 
pain as a method of behavior change.\1\ It includes a wide variety of 
methods such as hitting, slapping, spanking, punching, kicking, 
pinching, shaking, shoving, choking, use of various objects (i.e., 
wooden paddles, belts, sticks, pins, or others), painful body postures 
(such as placing in closed spaces), use of electric shock, use of 
excessive exercise drills, or prevention of urine or stool 
elimination.\2,3\ The majority of children have experienced physical 
punishment by the time they reach adolescence.\2,3\ Corporal punishment 
in schools does not refer to the occasional need of a school official 
to restrain a dangerous student or use physical force as a means of 
protecting members of the school community subject to imminent danger.
Prevalence of Corporal Punishment
    The prevalence of corporal punishment of children in schools 
remains high in the United States. In spite of many education and other 
national groups calling for corporal punishment in schools to be 
banned, the United States remains one of the few industrialized 
countries allowing corporal punishment in 30 states.\2,21\ According to 
the Office of Civil Rights (2007), school officials, including 
teachers, administered corporal punishment to 223,190 school children 
across the nation during the 2006-2007 school year.\8,12\ Experts note 
that there are about 1.5 million reported cases of physical punishment 
in school each year, but calculate the actual number to be at least 2-3 
million; as a result of such punishment, 10,000-20,000 students request 
subsequent medical treatment each year.\8,9,12\ During this same 
period, the top ten states for students being hit were, in order of 
highest to lowest frequency: Mississippi, Arkansas, Alabama, Oklahoma, 
Louisiana, Tennessee, Oklahoma, Texas, Georgia, Missouri, and 
Florida.\9,11,20,21\
    Current studies indicate that physical punishment is more common in 
kindergarten through eighth grade (versus high school), in rural 
schools (versus urban), in boys (versus girls), and in disadvantaged as 
well as non-Caucasian children (versus middle-class and upper-class 
Caucasians).\2,3,8,18-21\ The lowest incidence tends to be in those 
states and school districts that have outlawed corporal 
punishment.\2,3,4,9,18-21\
    Youth who attend rural southern schools and who are male or who are 
African-American are more likely to be victims of corporal 
punishment.\3,8\ In fact, according to data from the US Department of 
Education's Office of Civil Rights, African American students comprise 
17% of all public school students in the U.S., but are 36% of those who 
are victims of corporal punishment; this is more than twice the rate of 
white students. Looking at data from only the 13 states that paddle 
more than 1,000 per year, African-American students make up 24.8 
percent of the student population but 35.9 percent of those paddled. 
Additionally, almost 40% of all the cases of corporal punishment occur 
in just two states: Texas and Mississippi; also, if one adds Arkansas, 
Alabama, and Georgia, these five states account for almost three 
quarters of all the children receiving corporal punishment in 
schools.\3,8\
Disciplinary Ineffectiveness of Corporal Punishment
    Advocates of corporal punishment in schools generally contend that 
it is an effective form of correcting child misbehavior.\2\ However, a 
review of the science in this area notes that the vast majority of the 
evidence leads to the conclusion that corporal punishment is an 
ineffective method of discipline and has major deleterious effects on 
the physical and mental health of those on whom it is 
inflicted.\1,2,4,19,20,21\ As noted already, the Office of Civil Rights 
(2007) reports that 223,190 school children in the United States 
received corporal punishment during the 2006-2007 school year with 
estimates that include up to 3 million children and 10,000 to 20,000 
requesting medical treatment.\8,12\ Indeed, children and adolescents 
can be physically damaged by such punishment. In the case of corporal 
punishment in schools, many students are hurt. Medical complications 
may prevent students from returning to school for days, weeks, or even 
longer. Reported medical findings include abrasions, severe muscle 
injury, extensive hematomas, whiplash damage, life-threatening fat 
hemorrhage, and others (including death!).\8,9,12,21\
    There is no clear evidence that such punishment leads to better 
control in the classroom.\2,10,11,13,19,21,22\ Physically punishing 
children has never been shown to enhance moral character development, 
increase the student's respect for teachers or other authority figures 
in general, or offer greater security for the teacher.\2,6,8,19,21\ 
Children who are subjected to corporal punishment in school, in my 
view, are being physically, emotionally, and mentally abused; indeed, 
there are no data demonstrating that students subjected to corporal 
punishment in schools develop enhanced social or self-control 
skills.\2,4,7,21\
Effect of Corporal Punishment in School on Academic Success
    Hyman et. al.\4,6,21\ persistently assert that approximately one-
half of students who are subjected to severe punishment develop an 
illness called Educationally Induced Post-Traumatic Stress Disorder 
(EIPSD). In this disorder, there is symptomatology analogous to the 
Post-Traumatic Stress Disorder (PTSD). As with PTSD, EIPSD can be 
identified by a varying combination of symptoms characteristic of 
depression and anxiety. This mental health imbalance is induced by 
significant stress; with EIPSD the stress is the inflicted punishment. 
Such victimized students can have difficulty sleeping, fatigue, 
feelings of sadness and worthlessness, suicidal thoughts, anxiety 
episodes, increased anger with feelings of resentment and outbursts of 
aggression, deteriorating peer relationships, difficulty with 
concentration, lowered school achievement, antisocial behavior, intense 
dislike of authority, somatic complaints, tendency for school 
avoidance, school drop-out, and other evidence of negative high-risk 
adolescent behavior.\22,23\ This does not predict nor encourage 
academic success in our school milieu.
    This work is consistent with other research concluding that 
punished children become more rebellious and are more likely to 
demonstrate vindictive behavior, seeking retribution against school 
officials and others in society.\9\ Punishment is based on aversive 
techniques and produces very limited results.\21,22\ A student may 
cease acting out in one class only to continue in others. Such a child 
or adolescent learns the wrong message, one of avoidance or escape from 
getting caught or negative ways of eluding detection for wrong 
doing.\24\ This student very likely will learn techniques that actually 
lead to reduced self-control, with negative behavior characterized by 
more acting out, school absence, malingering, recidivism, and overt 
academic revocation.\4,9,12,21\ Some research notes that the more 
corporal punishment is used in schools, the higher is the rate of 
student violence and homicide.\25\
    Research notes that corporal punishment constructs an environment 
of education that can be described as unproductive, nullifying, and 
punitive. Children become victims, and trepidation is introduced to all 
in such a classroom. There is a limited (if any) sense of confidence 
and security; even those children who witness this type of abuse are 
robbed of their full learning potential.\19,21-24,26\ Students who are 
witnesses or victims of such abuse can develop low self-esteem, 
magnified guilt feelings, and various anxiety symptoms; such results 
can have baneful results in the psychosocial and educational 
development of these students.\19,21-26\ When studies look at the 
milieu of these classrooms, one finds that all are subjected to less, 
not more, learning. Because of fear, the nurturing of open 
communication, so vital to effective education, is severely spoiled in 
such aversive settings.
    However, the use of corporal punishment is associated with 
increased mental health problems in children including increased 
psychological distress, which may lead to anxiety, depression, alcohol 
and drug use, and general psychological maladjustment in those to whom 
it is applied.\2\ Also, in addition to personal distress, it may lead 
to vicarious learning of maladaptive methods of problem resolution by 
those students who witness it.
    The use of corporal punishment sanctions the notion that it is 
meritorious to be violent toward children, thereby devaluing them in 
society's eyes.\2,11,19,21\ It encourages children to resort to 
violence because they see their authority figures using it. Such 
practices harm children in teaching them that violence is acceptable, 
especially against the weak, the defenseless, and the subordinate; this 
is a message that can be reasonably assumed will negatively affect 
generations yet unborn. Violence is not acceptable and we must not 
support it by sanctioning its use by educational authority 
figures.\2,19\
Alternatives to Corporal Punishment
    An important technique in maintaining classroom control is to 
develop a milieu of effective communication and positive reciprocal 
relationships between parents, students, and teachers.\21\ School 
officials should possess a) expertise in child and adolescent 
development, b) generally enjoy working with children in the academic 
setting, c) have a strong desire to help youth learn, and d) promote an 
environment that clearly demonstrates that students are valued, 
respected, and understood. The emphasis should be on positive 
educational exchanges between teachers and students, not futile, 
contentious, win-lose contests.\2,6,8,21\
    Students, as well as their parents, should be carefully involved in 
decision-making about school issues affecting them, including the 
development and implementation of educational goals and disciplinary 
rules, along with positive behavioral support where required. Schools 
should have peer support programs that utilize techniques to encourage 
acceptable behavior.\2\
    It is critical that teachers receive adequate training and 
resources to help them effectively maintain classroom control without 
resorting to violent or aggressive techniques.\2\ One way to accomplish 
this is to provide teachers, both during pre-service and in-service 
training, with the ability to employ behavior management techniques 
that promote pro-social classroom interactions among the students; this 
would also promote a positive learning environment for those students. 
Teachers who comprehend the deleterious short- and long-term 
consequences of corporal punishment may be motivated to make 
appropriate changes to their classroom management skills. Schools 
should have an ample supply of counselors in the school to help 
teachers provide their problem students with access to another caring 
adult who can promote self-management as well as anger and impulse 
control especially for younger children.\2,21,26\
Constitutional Challenges
    Though more than half the states prohibit the use of corporal 
punishment in schools, federal law does not ban the practice. In the 
landmark case of Ingraham v. Wright,11,14 (1977) the US Supreme Court 
refused to impose constitutional restrictions on the practice of 
``reasonable'' corporal punishment. The court held that corporal 
punishment in schools does not violate Eight Amendment rights against 
cruel and unusual punishment or Fourteenth Amendment rights to due 
process. In a subsequent case, Hall v. Tawney (1980) the Fourth Circuit 
Court of Appeals held that students ``have a right to be free from 
state intrusions into the realm of personal privacy and bodily security 
thorough means so brutal, demeaning and harmful as literally to shock 
the conscience of the court.'' Some state laws criminalize the 
imposition of excessive corporal punishment, but the standard of 
``excessiveness'' is hard for students to prove. Generally speaking, it 
would be easier to prove a criminal case of assault and battery than to 
prove that a teacher has violated a student's substantive due process 
rights in a particular school disciplinary action. Thus, attempts to 
expand students' common law rights by invoking the U.S. Constitution 
have been met with limited, and generally, unsatisfactory 
results.\9,18\
    Aside from the limited success to end corporal punishment through 
the courts and under the U.S. Constitution, 30 states have banned 
corporal punishment in public and private schools through their own 
legislative process. By comparison, 47 states have laws banning 
corporal punishment in family day care settings, 44 states in group 
homes, 48 states in day care centers, and 49 states in home foster care 
(www.stophitting.com).
Conclusions
    The use of corporal punishment in the school environment falsely 
and perfidiously reinforces physical aggression as an acceptable and 
effective means of eliminating unwanted behavior in our society. 
Corporal punishment in schools is an ineffective, dangerous, and 
unacceptable method of discipline. Nonviolent methods of classroom 
control should be utilized in all our school systems.\2,8,9,19,20,21\ 
As a father of 4 daughters, a grandfather of 5 grandchildren, a 
Professor of Pediatrics, a medical scientist, and as a US Navy Vietnam 
veteran who served in the Vietnam war, I urge the committee to examine 
the science of this issue and understand that:
    <bullet> There is no clear evidence that such punishment leads to 
improved control in the classroom.
    <bullet> Corporal punishment has major deleterious effects on the 
physical and mental health of students punished in this manner.
    <bullet> It severely reduces and does not enhance the academic 
success of students who are subjected to corporal punishment in 
schools.
    <bullet> The use of corporal punishment in schools reinforces 
physical aggression and promotes violence in society.
    <bullet> Corporal punishment in schools should be banned.
    <bullet> Teachers should be educated in the use of alternative 
methods of discipline, with an emphasis on employing evidence-based 
behavior modification and other techniques to maintain control of the 
classroom without resorting to violence.
    Our precious children should not be subjected in the school milieu 
to hitting, slapping, spanking, punching, kicking, pinching, shaking, 
shoving, choking, use of various objects (wooden paddles, belts, 
sticks, pins, or others), painful body postures (as placing in closed 
spaces), use of electric shock, use of excessive exercise drills, or 
prevention of urine or stool elimination. In closing, I wish to avail 
myself to you should you have specific questions for me in this regard. 
I thank you very much for the opportunity and honor to speak before you 
today.
Acknowledgement
    Over the past 20 years I have used a number of consultants in my 
research and writing on the topic of Corporal Punishment in Schools. I 
acknowledge and thank these experts for their work with me:
    Anne E. Blake-Dreher JD, Miller, Canfield, Paddock and Stone, 
P.L.C., Detroit, Michigan; Samuel Greydanus Jr. JD, Braintree, 
Massachusetts; Joseph R. Hawver, Esq., Hawver & Associates, PLC, 
Portage, Michigan; Marissa A. Holt MA, Teacher, Paramount Charter 
Academy, Kalamazoo, Michigan; Dilip R. Patel MD, Professor, Pediatrics 
& Human Development, Michigan State University College of Human 
Development, MSU/Kalamazoo Center for Medical Studies, Kalamazoo, 
Michigan; Helen D. Pratt, Ph.D, Professor, Pediatrics and Human 
Development, Michigan State University College of Human Medicine, 
Developmental-Behavioral Pediatrics Program Director, MSU/Kalamazoo 
Center for Medical Studies, Kalamazoo, Michigan; C. Richard Spates, 
Ph.D, Professor and Director of Clinical Training, Department of 
Psychology, Western Michigan University, Kalamazoo, Michigan.
                               references
    \1\ Straus MA, Mouradian VE: Impulsive corporal punishment by 
mothers and antisocial behavior and impulsiveness of children. Behav 
Sci Law 1998; 16:353-374.
    \2\ Gershoff ET. Bitensky, SH: The case against corporal punishment 
of children: Converging evidence from social science research and 
international human rights law and implications for U.S. public policy. 
Psychology, Public Policy and Law. Nov 2007; 13(4): 231-272.
    \3\ McClure TE, May DC: Dealing with Misbehavior at Schools in 
Kentucky: Theoretical and contextual predictors of use of corporal 
punishment. Youth & Society Mar 2008; 39(3): 406-429.
    \4\ Hyman IA: Using research to change public policy: Reflections 
on 20 years of effort to eliminate corporal punishment in schools. 
Pediatrics 1996; 98 (Suppl):818-821.
    \5\ Bauman LJ, Friedman SB: Corporal punishment. Pediatric Clin No 
Amer 1998; 45:403-414.
    \6\ Hyman IA, McDowell E, Rains B: Corporal punishment and 
alternatives in the schools: An overview of theoretical and practical 
issues in National Institute of Education: Proceedings: Conference on 
Corporal Punishment Schools: A National Debate, February 18-20, 1977, 
U.S. Government Printing Office, 729 222/565, 1977.
    \7\ Herman DM: A statutory proposal to prohibit the infliction of 
violence upon children. Family Law Quarterly 1985; 19:1-52.
    \8\ Office for Civil Rights: 2006 civil rights data collection: 
Projected values for the nation. Washington, DC: U.S. Department of 
Education. 2007. Retrieved January 16, 2009, from http://
ocrdata.ed.gov/ocr2006rv30/xls/2006Projected.html
    \9\ Poole, SR, Ushokow, MC, Nader PR, et al.: The role of the 
pediatrician in abolishing corporal punishment in schools. Pediatrics 
1991; 88:162-7.
    \10\ Moelis CS: Banning corporal punishment: A crucial step toward 
preventing child abuse. Child Legal Rights 1988; 9:2-5.
    \11\ Frazier HC: Corporal and capital punishment of juveniles. Med 
Law 1990; 9:996-1004.
    \12\ Center for Effective Discipline: Discipline at School (NCACPS: 
U.S.: Corporal Punishment and Paddling Statistics by State and Race--
2006-2007 School Year. Columbus, Ohio: Author; March, 2008. Retrieved 
on 1/16/09 from http://www.stophitting.com/index.php?page=statesbanning
    \13\ Goss v. Lopez, 419 U.S. 565 (1975).
    \14\ Ingraham v. Wright, 430 U.S. 651, 662 (1977).
    \15\ Hall v. Tawney, 621 F. 2d 607, 613 (4th Cir. 1980).
    \16\ Garcia v. Miera, 817 F. 2d. 650, 653 (10th Cir. 1987).
    \17\ Wise v. Pea Ridge School District, 855 F. 2d. 560 (8th 
Cir.1988).
    \18\ Neal ex rel. Neal v Fulton County Bd. of Educ., 229 F.3d 1069 
(11th Cir, 2000), rehearing denied 244 F.3d 143.
    \19\ Lynnette R: Corporal punishment in American public schools and 
the Rights of the Child. J Law & Education 2001; 30:554-563.
    \20\ American Academy of Pediatrics Committee on School Health: 
Corporal punishment in schools. Position Statement. Pediatrics 
2000;106:343.
    \21\ Greydanus DE, Pratt HD, Spates CR, Blake-Dreher AE, Greydanus-
Gearhart MA, Patel DR: Corporal punishment: Position Statement of 
Society for Adolescent Medicine. J Adolesc Health 32:385-393, 2003.
    \22\ Dubanoski RA, Inaba M, Gerkewicz BA: Corporal punishment in 
schools: Myths, problems, and alternatives. Child Abuse Negl 1983; 
7:271-8.
    \23\ Reinholz LK: A practical defense of corporal punishment in the 
schools, in National Institute of Education: Proceedings: Conference on 
Corporal Punishment in Schools: A National Debate, February 18-20, 
1977, U.S. Government Printing Office, 729 222/565,1977.
    \24\ Mallot RW, Malott ME, Trojan EA: Elementary Principles of 
Behavior. 4th Edition. Upper Saddle River, NJ: Prentice Hall, 2000.
    \25\ Strauss MA: Spanking and the making of a violent society. 
Pediatrics 1996; 98 (Suppl): 837-841.
    \26\ Pratt HD, Greydanus DE: Adolescent violence: Concepts for a 
new millennium. Adolesc Med 2000; 11:103-125.
                        additional bibliography
1986-1987 Elementary and Secondary Civil Rights Survey, National 
        Summary of Projected Data. Washington, DC: Office of Civil 
        Rights, U.S. Department of Education, 1987.
1990 Elementary Secondary School Civil Rights Survey, National State 
        Summary of Projected Data. Washington, DC: Office of Civil 
        Rights, US Department of Education, 1992.
Abrahams N, Casey K, Daro D: Teachers' knowledge, attitudes and beliefs 
        about child abuse and its prevention. Child Abuse Negl 1992; 
        16:229-238.
American Academy of Pediatrics. Committee on School Health, American
Academy of Pediatrics. Corporal punishment in schools. Position paper. 
        Pediatrics 1986; 73:258.
American Academy of Pediatrics. Committee on School Health, American 
        Academy of Pediatrics. Corporal punishment in schools. Position 
        Paper. Pediatrics 1991; 88:173.
American Academy of Pediatrics Committee on Psychosocial Aspects of 
        Child and Family Health. Guidance for effective discipline. 
        Pediatrics 1998; 101:723-728.
American Academy of Pediatrics Committee on School Health: Corporal 
        punishment in schools. Position Statement. Pediatrics 2000; 
        106:343.
Bauer GB, Dubanoski R, Yamanchi LA, et al.: Corporal punishment and the 
        schools. Educ Urban Soc 1991; 22:285-99.
Block N, Fathman R: Convincing state legislatures to ban corporal 
        punishment. Children's Legal Rights J 1988; 9:21-24.
Bongiovani AF: A review of research on the effects of punishment: 
        Implications for corporal punishment in schools, in National 
        Institute Of Education: Proceedings: Conference on Corporal 
        Punishment in Schools: A National Debate, February 18-20, 1977, 
        U.S. Government Printing Office, 779 222/565, 1977.
Brown WE, Payne T: Policies/practices in public school disciplines. 
        Academic Therapy. 1988; 23:297-301.
Buntain-Ricklefs JJ, Kemper KJ, Bell M et al: Punishments: What 
        predicts adult approval? Child Abuse Negl 18: 945, 1994.
Cameron J, Pierce WD: Reinforcement, reward, and intrinsic motivation: 
        A meta-analysis. Reviews of Educational Research 1993; 64:363.
Carkhuff RR, Berenson PH, Pierce RM: The Skills of Teaching: 
        Interpersonal Skills. Amhurst, MA: Human Resource Development 
        Press, 1973.
Climinillo LM.: Discipline: The school's dilemma. Adolescence 1980; 
        15:1-12.
Cohen P: How can generative theories of the effects of punishment be 
        tested? Pediatrics 1996; 98(Suppl):834-36.
Coie JD, Underwood M, Lochman JE: ``Programmatic intervention with 
        aggressive children in the school setting.'' In: Pepler DJ & 
        Rubin KH (eds): The Development and Treatment of Childhood 
        Aggression. Hillsdale, NJ: Lawrence Erlbaum Associates Inc, pp. 
        389-410, 1991.
Conte AE: In loco parentis: Alive and well. Education 2000; 121:195-
        200.
Eron LD: Research and public policy. Pediatrics 1996; 98 (Suppl):821-
        823.
Gainer PS, Webster SW, Champion HR: A youth violence prevention 
        program: Description and preliminary evaluation. Arch Surg 
        1993; 128:303-8.
Garrison EG: Psychological maltreatment of children: An emerging focus 
        for inquiry and concern; American Psychologist 1987; 42:157-9.
Gershoff ET: Corporal punishment by parents and associated child 
        behaviors and experiences: A meta-analytic and theoretical 
        review. Psychol Bull 2002; 128:539-579.
Giles-Sims J, Straus M & Sugarman D: Child, maternal and family 
        characteristics associated with spanking. Fam Relations 1995; 
        44:170-176.
Graziano AM: Why we should study sub-abusive violence against children. 
        J Interpersonal Violence 1994; 9:412.
Grossman DC, Rauh MJ, Rivara FP: Prevalence of corporal punishment 
        among students in Washington State schools. Arch Pediatr 
        Adolesc Med 1995; 149:529-532.
Grusec JE, Goodnow JJ: Impact of parental discipline methods on the 
        child's internalization of values: A reconceptualization of 
        current points of view. Develop Psychol 1994; 30:4-19.
Hart SN, Brassard MR: A major threat to children's mental health: 
        Psychological maltreatment. American Psychologist 1887; 42:160-
        5.
Holden GW, Coleman SM, Schmidt KL: Why 3-year-old children get spanked: 
        Parent and child determinants as reported by college-educated 
        mothers. Merrill-Palmer Quarterly 1995; 41:431.
Hyman IA, Irwin A, Lally D: discipline in the 1980's: Some alternatives 
        to corporal punishment. Children Today 1982; 11:10-13.
Hyman IA.: Eliminating corporal punishment in schools: Moving from 
        Advocacy research to policy implementation. Child Legal Rights 
        1988; 9:14-20.
Hyman IA, Zelikoff W, Clarke J: Psychological and physical abuse in the 
        schools: A paradigm for understanding postraumatic stress 
        disorder in children and youth. J Traumatic Stress 1988; 1:243-
        66.
Hyman IA: Corporal punishment, psychological maltreatment, violence, 
        and punitiveness in America: research, advocacy, and public 
        policy. Applied Preventive Psychology 1995; 4: 113-130.
Hyman I, Dahbany A, Blum M et al.: School Discipline and School 
        Violence: The Teacher Variance Approach Needham Heights, MA: 
        Allyn & Bacon, 1996.
Imbrogno AR: Corporal punishment in America's public schools and the 
        U.N. Convention of the Child: A case for nonratification. J Law 
        & Education 2000; 29: 125-147.
Jones VF, Jones LS: Responsible Classroom Discipline: Creating Positive 
        Learning Environments and Solving Problems. Boston, Allyn and 
        Bacon, 1981.
Larzelere R: A review of the outcomes of parental use of nonabusive or 
        customary physical punishment. Pediatrics 1996; 98 (Suppl): 
        824-828.
Larzelere RE, Johnson B: Evaluations of the effects of Sweden's 
        spanking ban on physical child abuses: A literature review. 
        Psychlogical Rep 1999; 85:381-92.
Lewis C: The roots of discipline in Japanese preschools: Meeting 
        children's needs for friendship and contribution. Advances in 
        Early Education and Day Care 1995: 6:269-278.
McCord J: Unintended consequences of punishment. Pediatrics 98 (Suppl): 
        1996; 832-836.
McCormick KF: Attitudes of primary care physicians toward corporal 
        punishment. JAMA 1992; 267:3161.
Medway FJ, Smircic JM: Willingness to use corporal punishment among 
        school administrators in South Carolina. Psychol Rep 1992; 
        71:65-66.
Olson DA. : The Swedish ban of corporal punishment. Brigham Young 
        University. Law Review 1984; 447-456.
Orentlicher D: Corporal punishment in the schools. JAMA 1992; 267:3205-
        3208.
Paintal S: Banning corporal punishment of children. Childhood Education 
        1999; 76:36-39.
Patterson GR: The aggressive child: Victim and architect of a coercive 
        system. In: Marsh EJ, Hamerlynck LH, Handy LC, eds. Behavior 
        Modification and Families. New York: Brunner/Mazel, 267-316, 
        1976.
Patterson GR, DeBaryshe BD, Ramsey E: A developmental perspective on 
        antisocial behavior. Am Psychol 1989; 44:329.
Reitman A.: Corporal punishment in schools-The Ultimate violence. Child 
        Legal Rights 1988; 9:6-13.
Rivara FP, Farrington DP: Prevention of violence: Role of the 
        pediatrician. Arch Pediatr Adolesc Med 1995; 149:421-4.
Roberts MW, Powers SW: Adjusting chair timeout enforcement procedures 
        for oppositional children. Behav Ther 1990; 21:257.
Smith JR, Brooks-Gunn J: Correlates and consequences of harsh 
        discipline for young children. Arch Pediatr Adolesc Med 1997; 
        151:777-786.
Straus MA, Sugarman DB, Giles-Sims J: Spanking by parents and 
        subsequent antisocial behavior of children. Arch Pediatr 
        Adolesc Med 1997; 75:761-67.
Sulzer-Azaroff B, Mayer GR: Applying Behavior Analysis Procedures with 
        Children and Youth. New York, Holt, Rinehard, and Winston, 
        1977.
Sulzer-Azaroff B, Mayer GR: Achieving Educational Excellence. New York, 
        Holt, Rinehard, and Winston, 1986.
The National Center for the Study of Corporal Punishment and 
        Alternatives. States Which Have Abolished Corporal Punishment 
        as a Means of Discipline in the Schools. Philadelphia, PA: 
        Temple University, 1994.
Thompson EE: The short- and long-term effects of corporal punishment on 
        children: A meta-analytic review. Psychol Bull, 1999.
Thrasher v. General Casualty, 732 Supp 996, W.D. Wis (1990).
Wauchope BA & Straus MA: Physical punishment and physical abuse of 
        American children: Incidence rates by age, gender and 
        occupational class.'' In: MA Straus & RJ Gelles (eds): Physical 
        violence in American families. New Brunswick, NJ: Transaction, 
        pp. 133-148, 1990.
Weiss B, Dodge KA, Bates JE et al.: Some consequences of early harsh 
        discipline: Child aggression and maladaptive social information 
        processing style. Child Dev 1992; 63:1321.
Wilson FC: A look at corporal punishment and some implications of Its 
        use. Child Abuse Negl 1982; 6:155-64.
Wolfgang CH, Glickman CD: Solving Disciplinary Problems: Strategies for 
        Classroom Teachers. Boston, Allyn and Bacon, 1980.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much, Doctor.
    Ms. Frieler?

  STATEMENT OF JANA FRIELER, PRINCIPAL, OVERLAND HIGH SCHOOL; 
   PRESIDENT-ELECT, NATIONAL ASSOCIATION OF SECONDARY SCHOOL 
                           PRINCIPALS

    Ms. Frieler. Good morning, Chairwoman McCarthy, Ranking 
Member----
    Chairwoman McCarthy. Could you bring the mic a little bit 
closer to you?
    Ms. Frieler. Is that better?
    Good morning. Chairwoman McCarthy, Ranking Member Platts 
and members of the subcommittee, thank you for inviting me to 
speak on the issue of corporal punishment in schools and its 
effects on student achievement.
    My name is Jana Frieler. I am the principal of Overland 
High School in Aurora, Colorado. Our school is a comprehensive 
public suburban institution with over 2,000 students, who speak 
54 different languages. We are more than a third African-
American, a fourth Hispanic, and one-half of our students 
qualify for free and reduced lunches, yet Overland High School 
succeeds academically.
    We offer 21 advanced placement courses and an institute for 
math, science and technology. Eighty-nine percent of our 2009 
graduates are now participating in some form of post-secondary 
education this year. Such success is only possible in a 
supportive school environment. A culture that promotes the 
students' sense of belonging to the school helps them take 
ownership of their learning and values their voice as an 
important member of the school community.
    As we have known since Abraham Maslow published his well-
known hierarchy of needs in 1943, fundamentally, if students 
don't feel safe at school, they cannot learn. My comments today 
reflect both my personal beliefs and the position of the 
National Association of Secondary School Principals, the 
nation's largest school leadership organization, who I am 
honored to serve as president-elect.
    NASSP has adopted a position statement opposing the use of 
corporal punishment based on six guiding principles. First, 
schools should be free from violence. Schools must engage 
students and not intimidate them into learning. Schools have a 
responsibility to model authority that is constructive, humane, 
and provides opportunities for growth.
    Discipline must promote self-control in constructive, not 
harmful ways. Discipline and corporal punishment are not 
synonymous. Discipline should be applied consistently and 
fairly. The statement draws a distinction between discipline 
and punishment. Discipline teaches students to learn from their 
mistakes and handle future situations more constructively. 
Punishment, however, teaches students to avoid getting caught 
in order to escape the consequences and not change a thing 
about their behavior.
    In my 15 years as a school administrator, I have never 
resorted to corporal punishment, nor do I condone the practice, 
preferring instead to use infractions as learning 
opportunities. If the student understands his or her 
responsibility in the matter and the consequence for the 
misbehavior is perceived as fair and reasonable, parents and 
students are much more likely to accept the outcome, regardless 
of the severity.
    Personalization is central to the NASSP's breaking ranks 
school improvement framework by promoting a climate that never 
tolerates violence, but instead focuses on each student's 
success and implements a proactive approach to the discipline. 
Such a climate can increase attendance, reduce dropout rates, 
and decrease disruptive behaviors, eliminating the need for 
punishment-focused discipline systems.
    However, proactive discipline must be a part of whole 
school planning and operations on a daily basis, not reactive 
to specific incidences of behavior. To this end NASSP supported 
the Keeping All Students Safe Act, which was approved by the 
House last month and would establish federal minimum standards 
on use of physical restraint or seclusion in schools.
    I understand that Chairwoman McCarthy will be introducing 
this legislation to prohibit the use of corporal punishment in 
our public schools, and NASSP will support that bill as well. 
We who are responsible for fostering positive climate in 
schools welcome the support of federal legislation, and we hope 
that realistic funding accompanies it.
    The truth is that creating such a climate is complex and 
challenging. We must convey clear behavioral expectations to 
students, staff and parents, and at all times we must keep what 
is in the best interest of our students at heart with fair and 
natural consequences designed to educate instead of punitive 
ones designed to exact revenge.
    Programs such as school-wide positive behavior support, 
which is widely used in Colorado, can assist school leaders 
through the tracking of discipline infractions by time and 
type, which allows resources and human capital to be placed 
where they are most needed.
    Dr. James Comer, one of the country's leading child 
psychiatrists, has stated, ``No significant learning occurs 
without a significant relationship.'' Establishing this 
trusting relationship is even more critical to the academic 
development of minority students and those living in poverty, 
students that research shows are more likely to receive 
corporal punishment, if it is allowed.
    The threat of physical punishment hanging over a student's 
head does not promote a climate of security, nor of learning. 
Corporal punishment is no longer tolerated in the military, 
prisons, or mental institutions. I strongly encourage Congress 
to give students the same consideration by enacting legislation 
that prohibits the use of corporal punishment in all schools 
nationwide.
    Madam Chairwoman, this concludes my prepared testimony, but 
I would be happy to answer any questions committee members 
have.
    [The statement of Ms. Frieler follows:]

     Prepared Statement of Jana Frieler, President-Elect, National 
               Association of Secondary School Principals

    Chairwoman McCarthy, Ranking Member Platts, and members of the 
subcommittee, thank you for inviting me to speak on the issue of 
corporal punishment in schools and its effect on student achievement. 
My name is Jana Frieler, and I am the principal of Overland High School 
in Aurora, Colorado, where I have served for five years. Our school is 
a comprehensive, public, suburban institution with over 2,100 students 
who speak 54 different languages. Nearly half of our students are 
eligible for free and reduced-price meals. Thirty-seven percent of our 
students are Black, and 22% are Hispanic. Diversity is something we 
celebrate. Our students can take part in leadership groups to help them 
appreciate our differences while participating in activities that 
celebrate their own cultures. Overland is also a college preparatory 
school with 21 different Advanced Placement courses in almost every 
subject area and an Institute for Math, Science, and Technology. 
Eighty-nine percent of our students who graduated from our school in 
2009 are participating in some form of postsecondary education this 
year.
    The Cherry Creek School District, where my school is located, 
covers approximately 110 square miles in the southeast metropolitan 
boundaries of the Denver area and serves approximately 48,700 students. 
Our district consists of 40 elementary schools, 1 charter school, 11 
middle schools, 6 high schools and 1 alternative high school.
    Today, I am also appearing on behalf of the National Association of 
Secondary School Principals, where I serve as president-elect. In 
existence since 1916, NASSP is the preeminent organization of and 
national voice for middle level and high school principals, assistant 
principals, and aspiring school leaders from across the United States 
and more than 45 countries around the world. Our mission is to promote 
excellence in middle level and high school leadership.
NASSP
    In 2004, the NASSP Board of Directors adopted a position statement 
expressing our opposition to the use of corporal punishment in middle 
and high schools. The board revisited that position in February 2009 
and reaffirmed our commitment to the six guiding principals on which 
the position statement is based:
    <bullet> NASSP supports the federal goal of violence-free schools 
stated in Goals 2000: Educate America Act (1994). Every school in the 
United States should be free of drugs, violence, and the unauthorized 
presence of firearms and alcohol.
    <bullet> The fundamental need of U.S. education is to find ways of 
engaging today's students in the excitement of learning. Fear of pain 
or embarrassment has no place in that process.
    <bullet> Students have the right to learn in a safe and secure 
environment. Schools have a responsibility to model for and teach our 
youth methods of exerting authority and modifying behavior that are 
constructive, humane, and provide opportunities for growth.
    <bullet> Many proven means of discipline promote self-control and 
the development of appropriate socially adaptive behaviors in 
constructive, nonharmful ways.
    <bullet> Discipline and corporal punishment are not synonymous.
    <bullet> Discipline should be applied consistently and fairly.
    To avoid the alienation of youth and to address the issues that 
lead to corporal punishment, NASSP has a long history of supporting the 
personalization of the school environment and student learning. We 
believe that school climate must be one that never tolerates violence 
but instead focuses on each student's success and how the school can 
foster a proactive approach to discipline.
    In 1996, NASSP published Breaking Ranks:Changing an American 
Institution in which we called for sweeping change in schools. 
Recommendations from that and later Breaking Ranks publications focus 
on areas that the school principal can influence directly. Some of the 
recommendations that apply to this topic are:
    <bullet> Schools will create small units in which anonymity is 
banished.
    <bullet> Every student will have a personal adult advocate.
    <bullet> Schools will engage students' families as partners.
    <bullet> Schools, in conjunction with agencies in the community, 
will help coordinate the delivery of physical and mental health 
services.
    As you can see, recommendations such as these are the proactive 
part of discipline and must be part of the whole school planning and 
operations on a daily basis.
    To this end, NASSP supported legislation approved by the House last 
month that would establish federal minimum standards on the use of 
physical restraint or seclusion in schools. The Keeping All Students 
Safe Act (H.R. 4247) would also ensure that state-approved crisis 
intervention programs include evidence-based skills training related to 
positive behavior supports and provide grants to states implementing 
schoolwide positive behavior support approaches to improving school 
climate. I understand that Chairwoman McCarthy will be introducing 
legislation to prohibit the use of corporal punishment in our nation's 
public schools, and NASSP will support that bill as well.
Corporal Punishment in Colorado
    According to the American Civil Liberties Union (ACLU), in the 
United States at least 220,000 children in public schools are subjected 
to corporal punishment, or ``paddling,'' in response to unacceptable 
behavior and/or inappropriate language. A disproportionate number of 
these students are minorities, male students, and students with 
disabilities. In fact, while Black students represent only 17% of the 
total student population, they receive 36% of the corporal punishment, 
more than twice the rate of White students.
    Although corporal punishment is no longer tolerated in the 
military, prisons, or mental institutions, the U.S. Department of 
Education reports that 20 states still allow corporal punishment in 
full or in part, including my home state of Colorado. Long considered a 
``local control state,'' the Colorado legislature enacted the Safe 
Schools Act in 2004 to provide students with a safe, conducive learning 
environment that is free from disruptions. Each school district must 
develop ``concisely written conduct and discipline codes that shall be 
enforced uniformly, fairly and consistently for all students.'' The 
district's conduct and discipline code must also include ``policies and 
procedures for the use of reasonable and appropriate physical 
intervention or force in dealing with disruptive students; except that 
no board shall adopt a discipline code that includes provisions that 
are in conflict with the [state] definition of child abuse.''
    While corporal punishment is allowable in Colorado, I believe its 
use is rare and there are reasons for this. First are the liability 
issues that are of great concern to school officials; regardless of the 
immunity laws that protect the school staff who impose such 
punishments, the possibility for potential litigation is great. More 
importantly, however, the use of corporal punishment can serve as an 
impediment to student learning. If students need to feel safe in order 
to learn, striking a child as a punishment is completely 
counterintuitive to establishing a culture and climate of safety and 
therefore inhibits the learning that should be happening.
    Corporal punishment is specifically prohibited in the Cherry Creek 
School District, which governs my school. Every year, the Student 
Conduct and Discipline, Rights and Responsibilities handbook is 
distributed to school staff members and parents to explain the 
district's policies for ensuring a safe education environment. 
Consistent with state law and as long as it is not in conflict with the 
legal definition of child abuse, however, the handbook states that our 
discipline policies and procedures may include acts of reasonable and 
appropriate physical intervention or force if a student is placing him 
or herself or others in danger. As the principal of Overland High 
School, I must submit an annual report to the board of education that 
includes information on the number of conduct and discipline code 
violations that occurred at my school and list any behavior on school 
property ``that is detrimental to the welfare or safety of other 
students or of school personnel, including behavior that creates a 
threat of physical harm to the student or to other students.''
Personal Testimony
    I have been a school administrator for over 15 years and, as such, 
have made countless decisions regarding the discipline of students. I 
have never resorted to corporal punishment nor do I condone the 
practice. I believe that discipline should not be aimed at punishment, 
but rather used as a learning opportunity for our students. If we focus 
on punishing our students through threats, coercion, or physical 
punishment, they may simply learn to avoid getting caught in order to 
escape the consequences and therefore may become doomed to repeat, not 
change, their behavior. If we focus on using the situation as a 
learning opportunity, however, we teach them instead to learn from 
their mistakes and how to better handle future situations in a more 
positive manner. Personally, I have had much success with this 
practice. If the student understands his or her responsibility in the 
matter and the consequence for the misbehavior is perceived as fair and 
reasonable, parents and students are much more likely to accept the 
outcome, regardless of its severity.
    As a school administrator, I have always worked to create 
opportunities that are best for my students. Programs, activities and 
events that enhance student performance take priority, but it's 
important to realize that for academic growth to occur, it must take 
place in a supportive school environment--a culture that promotes the 
students' sense of belonging to the school helps them take ownership of 
their learning and values them as important members of the school 
community. This type of personalized learning environment can increase 
attendance, decrease dropout rates, and decrease disruptive behavior--
and eliminate the need for a punishment-focused discipline system.
    While my philosophy sounds simple, creating this type of school 
environment is, in reality, quite complex. School leaders must 
intentionally focus on establishing a positive, supportive school 
environment with policies and procedures that affect the culture and 
continually monitor the climate and revising it as necessary. Clear 
expectations regarding student behaviors must be conveyed to students, 
staff members, and parents. Fair and natural consequences, as opposed 
to punitive ones, must be employed at all times.
    Programs such as schoolwide positive behavior support, widely used 
in Colorado, can assist school leaders by tracking of discipline 
infractions by type and time, which allows resources and human capital 
to be placed where they are most needed. School climate and culture 
surveys are also given to students, staff members, and parents to 
provide insight and valuable information as to how the school's 
environment is perceived by all stakeholders.
    Dr. James Comer, one of the country's leading child psychiatrists, 
has said, ``No significant learning occurs without a significant 
relationship.'' Establishing this trusting relationship is even more 
essential to the academic development of minority students and those 
living in poverty--students who research shows are more likely to 
receive corporal punishment if it is allowed. So while the 
establishment of a positive, supportive school environment is important 
in every school, it is paramount in schools with diverse or high-
poverty populations.
    Unfortunately, the wishes and best interests of adults are often 
the basis of decisions made in some schools. And while it is important 
to consider the needs of all members of the school community, decisions 
must be made in the best interests of the students being served. Based 
on my personal philosophy and experiences as well as my position as 
president-elect of NASSP, I offer the following recommendations to 
guide schools in developing a positive, supportive environment that 
promotes the academic growth and personal development of every student 
at the school:
    <bullet> Abolish all policies and procedures that allow or promote 
corporal punishment or are focused on punitive measures.
    <bullet> Help students achieve academic success through the 
identification of strengths and deficiencies and provide students with 
the instruction, interventions, and support necessary for success.
    <bullet> Establish discipline policies and practices that promote 
growth and self-discipline and are based on fair, reasonable, and 
consistent rules.
    <bullet> Employ disciplinary consequences that are natural, 
logical, and meaningful and contain an instructional or reflective 
component.
    <bullet> When appropriate, implement personalized behavioral 
contracts that are collaboratively developed by school personnel, the 
student, and the parent(s).
    <bullet> Encourage positive reinforcement of appropriate behavior.
    <bullet> Establish programs that emphasize early diagnosis of 
social or behavioral problems and provide the students and their 
teachers with the appropriate interventions and support.
    <bullet> Encourage programs that emphasize values, citizenship, 
school pride, and personal responsibility and support the mental health 
needs of students.
    <bullet> Use school and/or community-based counseling for 
individuals or groups.
    <bullet> Develop systems that promote strong parent-school and 
community-school communications and relationships.
    <bullet> Provide professional development opportunities for school 
leaders and all staff members (teachers, support staff, bus drivers, 
playground aides, etc.) to gain and/or refine skills in classroom 
management, conflict resolution, relationship building, positive 
behavioral supports, etc.
    In 1943, Abraham Maslow published his well known research on the 
hierarchy of needs. The need to feel safe is the second most important 
attribute after basic life needs such as food and shelter. Maslow's 
hierarchy tells us that if the first level is not met, progress in the 
second is impossible and so forth. A clear conclusion is that if a 
student does not feel safe, then other life functions cannot take 
place. The educational parallel to this research is that if students 
don't feel safe at school, they cannot learn; this has been supported 
by multiple research studies. The threat of physical punishment hanging 
over a student's head does not promote a climate of security or 
learning. For this reason and the ones I have stated previously, I 
firmly encourage Congress to enact legislation prohibiting the use of 
corporal punishment in all schools nationwide.
    Madam Chairwoman, this concludes my prepared testimony, but I would 
be happy to answer any questions you or the other committee members may 
have.
    Thank you again for this opportunity.
                                 ______
                                 
    Chairwoman McCarthy. Thanks very much.
    Ms. Gilbert?

             STATEMENT OF WYNELL GILBERT, TEACHER,
                       ERWIN HIGH SCHOOL

    Ms. Gilbert. Chairwoman McCarthy and subcommittee members, 
it is an honor to speak before you today. I am Wynell Gilbert, 
a secondary school science teacher at Erwin High School in 
Center Point, Alabama. I am testifying today on behalf of the 
Jefferson County Federation of Teachers. I am also a member of 
the American Federation of Teachers, which for many years has 
been training teachers on how to run effective, orderly, safe 
and respectful classrooms without the use of corporal 
punishment.
    I am here today, because I know firsthand the difference a 
teacher can make in the classroom without having to resort to 
corporal punishment. Even though corporal punishment is allowed 
in many Southern states, has it truly made a difference in 
student behavior?
    Based on my experience as a teacher in a high school that 
was once known for its discipline problems, using corporal 
punishment in my opinion is comparable to sweeping dirt under 
the rug. The problem still exists. It is just being covered up. 
A paddle may teach a child to be fearful, but what happens when 
the child is no longer afraid?
    I have been in public education for approximately 12 years. 
Six of these years have been spent at Erwin High School. In 
terms of demographics, we are a school that is approximately 93 
percent African-American, 1 percent Asian, 3 percent Hispanic 
and 3 percent Caucasian.
    Our school has a highly transient student population. Many 
of my students are raised in single parent homes, primarily by 
their mothers and/or grandparents. Most of the parents are 
relatively young. The majority of male students are raised in 
homes without their fathers, and sometimes there is little or 
no interaction between fathers and sons.
    Some of our students are affiliated with gangs and often 
engage in illegal activities. We have had to deal with a lot of 
discipline problems in the school, and unfortunately, some of 
these discipline problems were handled by the use of corporal 
punishment with the consent of a parent. The problems were not 
solved, because the same behaviors continued, often with more 
hostility from the student.
    In my classroom I have dealt with different types of 
misbehaviors. I can honestly say that I have never had to 
administer corporal punishment, nor had the desire to use it on 
any of my students. However, as a result of their misbehavior, 
some of my students did receive corporal punishment from the 
school administration. Unfortunately, when the students came 
back to my classroom, they were often hostile, and after a 
while, the misbehavior resumed.
    As a result I became proactive in my class as opposed to 
being reactive. I started this process by implementing 
strategies that I learned through educational research and 
dissemination training. It is a professional development 
program developed by the American Federation of Teachers, which 
my local union provides.
    Based on this training I set high behavioral expectations 
for my students, seek to empower them and work really hard at 
getting to know my students, their likes, their dislikes, and 
try to find the things that motivate them. As simple as this 
may seem, these are the strategies that have cut down on 
misbehavior in my classroom without the use of corporal 
punishment.
    For example, as an incentive, I give extra credit bonus 
points to students who go the extra mile in class. We may do 
special projects as a class. I may have guest speakers come to 
talk to the students, and as opportunity presents itself, we 
may do outside experiments. These are the things that I find 
help motivate my students. These incentives give them reason to 
come to my class and participate. In essence, these extras give 
students a sense of ownership and acceptance.
    Even though these strategies have been successful in my 
classroom, there are always a few students who may act out. 
However, because of the tone I have set and the expectations 
that have been established, these misbehaviors often are minor 
and can be handled in the classroom.
    I can recall a situation in which one of my female students 
would come to class with the worst attitude ever. She 
constantly caused problems in the classroom. Before sending her 
to the office, I spoke with a social worker. This is a position 
most schools in my district do not have, but we have been 
fortunate to have a social worker within our school.
    I found out that this young lady had very little respect 
for women, because she was habitually abused by her mother and 
eventually was removed from her home and placed in foster care. 
When I realized this, I knew that harsh punishment would not 
solve the problem with this young lady.
    I learned that she was a very good artist, so the next day 
in class we did an assignment in which students had to 
illustrate what they learn by drawing a picture. Each person in 
the class was assigned a role. Of course, I assigned this young 
lady to be the illustrator, giving her an opportunity to 
showcase her artwork. At the end of class I commented her on 
her drawing, and she was thrilled to know that I liked the 
picture.
    We engaged in a conversation about other things that 
interest her, but everything circled back to art. Without going 
into detail about her past, she told me that drawing gave her 
an opportunity to escape. Seeing that this was her greatest 
strength, I suggested the following to her. I told her when she 
came to class, she had to act like a young lady to do all that 
was required for the class period. Then, if time allowed, I 
would let her draw for the last 5 to 10 minutes of class.
    I didn't let her down. I kept my promise, and I maintained 
consistency with her. As a result, she didn't let me down and 
became one of my better students. In this situation corporal 
punishment would not have been the solution.
    In addition to the things I have done in my classroom to 
maintain discipline through positive reinforcement, our school 
has been proactive with this approach as well. Among the things 
that have been done in place is a program called ``Caught Doing 
Something Good,'' which recognizes students for doing something 
good in the school. For example, if a student turns in a lost 
wallet, the student's name is announced over the PA system at 
the end of the day. Students are so excited to hear their names 
announced that they work extra hard to be recognized for their 
positive behaviors.
    In conclusion, corporal punishment does not work, and in my 
opinion should be banned. Fortunately, the principal of my 
school has moved away from corporal punishment unless the 
parent consents. Yes, we still have discipline problems, but 
our principal works really hard with our social worker to 
ensure that students have an opportunity to improve their 
behavior by using positive reinforcement before other steps are 
taken.
    Thank you, and I will be available for questions.
    [The statement of Ms. Gilbert follows:]

   Prepared Statement of Wynell Gilbert, Teacher, Erwin High School,
                            Center Point, AL

    Chairwoman McCarthy, Ranking Member Platts, and subcommittee 
members, I am Wynell Gilbert, a secondary school science teacher at 
Erwin High School in Center Point, Ala. I am testifying today on behalf 
of the Jefferson County Federation of Teachers. I am also a member of 
the American Federation of Teachers, which for many years has been 
training teachers in how to run effective, orderly, safe and respectful 
classrooms without the use of corporal punishment.
    I am here today because I know firsthand the difference a teacher 
can make in the classroom without having to resort to the use of 
corporal punishment. Even though corporal punishment is allowed in many 
Southern states, has it truly made a difference in student behavior? 
Based on my experiences as a teacher in a high school that was once 
known for its discipline problems, using corporal punishment is 
comparable to sweeping dirt under the rug: The problem still exists; 
it's just being covered up. Typically, the students who caused the most 
problems in my classroom were the ones who were seeking attention and/
or in search of acceptance. A paddle may teach a child to be fearful, 
but what happens when the child is no longer afraid?
    I have been in public education for approximately 12 years. Six of 
these years have been spent at Erwin High School, near Birmingham, Ala. 
In terms of demographics, we are a school that is 93.1 percent African-
American, 0.8 percent Asian, 3.06 percent Hispanic, and 3.31 percent 
Caucasian. Our school has a highly transient student population. Many 
of my students are raised in single-parent homes, primarily by their 
mothers and/or grandparents. Most of the parents are relatively young. 
The majority of male students are raised in homes without their 
fathers, and sometimes there is little or no interaction between 
fathers and sons. Some of our students are affiliated with gangs and 
often engage in illegal activities. We have had to deal with a lot of 
discipline problems in the school and, unfortunately, some of these 
discipline problems were handled by the use of corporal punishment. The 
problems were not solved, because the same behaviors continued, often 
with even more hostility.
    In my classroom, I have dealt with different types of misbehaviors. 
I can honestly say that I have never had to administer corporal 
punishment nor had the desire to use it on any of my students. However, 
as a result of their misbehavior, some of my students did receive 
corporal punishment from the school administration. Unfortunately, when 
the students, came back to my classroom, they were often hostile, and 
after a while, the misbehavior resumed. As a result, I became proactive 
as opposed to reactive. I started this process by implementing 
strategies that I learned through ER&D (Educational Research and 
Dissemination) training, a professional development program developed 
by the American Federation of Teachers, which my local union provides. 
From this, I found that the most effective strategy was setting the 
tone in my own classroom.
    From day one, I set high behavioral expectations for my students; I 
empower them by giving them an opportunity to establish their own 
classroom rules as long as they comply with the school's Student Code 
of Conduct. I make a conscious effort to get to know my students; this 
enables me to target the ones who may develop behavioral problems. 
Typically, these are the students who I want to ``empower'' by giving 
them certain responsibilities. For example, I had a young lady in my 
class who was always tardy; when she came to class, she always caused 
problems. Whenever I addressed the issue with her, she would become 
hostile and shut down. Of course, when she did this, it interrupted the 
learning process. One day, I decided to take a different approach. That 
day when she came in late, I asked her to file papers for me. She 
worked quietly in a corner. The next day, I saw her in the hall and I 
commented on how well she filed the papers and how she helped me out 
tremendously. The look on her face made me realize that this may have 
been the only compliment this young lady had ever received. So, she and 
I began to talk more, and she offered to be my student helper. This 
gave me an opportunity to see what she was interested in, while being 
able to hold some type of leverage on her. My response to her was, 
``You can't be my helper if you continue to come to my class late and 
misbehave. You have to set an example for other students.'' After 
having this conversation with her, she was the first person to arrive 
in my class every day. In fact, she became one of my best students. In 
situations like this, oftentimes the student is referred to the office 
for disciplinary action, which may or may not result in corporal 
punishment. Would corporal punishment have benefited this young lady? 
Positive reinforcement got the results I wanted without the use of 
corporal punishment.
    I work really hard at getting to know my students, thus learning 
their ``likes'' and ``dislikes,'' and I try to find the things that 
motivate them. As simple as this may seem, these are the strategies 
that have cut down on misbehavior in my classroom, without the use of 
corporal punishment. For example, as an incentive, I give extra credit/
bonus points to students who go the extra mile in class; we may do 
special projects as a class; I may have guest speakers come in to talk 
to the students; and if the opportunity presents itself, we may do 
outside experiments. These are the things that I find help motivate my 
students. These incentives give them a reason to come to my class and 
participate. In essence, these extras give students a sense of 
ownership and acceptance. Even though these strategies have been 
successful in my classroom, there are always a few students who still 
may act out. However, because of the tone I have set and the 
expectations that have been established, these misbehaviors often are 
minor and can be handled in the classroom. I know that I have been 
successful in managing my classroom because I am consistent; I provide 
a structured environment for my students; and I try to address any 
problems in the beginning before they fester.
    As I recall, during my first year of teaching at this school, many 
of the students had very little pride, and school morale was very low. 
We had a lot of discipline problems, and many of our students received 
corporal punishment. Even though corporal punishment was administered, 
the discipline problems continued.
    Unlike most schools in our school district, we have a full-time 
social worker on our campus. This individual has played a tremendous 
role in working with the students who are most likely to misbehave. 
Oftentimes, teachers are asked to refer students with repetitive 
misbehaviors to the social worker. These students typically are dealt 
with by using the Strength-Based Perspective program, which highlights 
the students' strengths (something positive) as opposed to their 
weaknesses. By using this approach, he is able to build a relationship 
with the student, which in turn builds trust and gives the student an 
opportunity to be a part of the process. The social worker's role in 
the school has had a very positive impact, particularly on our male 
students. It is very helpful that he is an African-American, so most of 
the students can identify with him; he has taught a lot of these young 
men what it means to be a man and how to avoid conflict in a positive 
way (whether the conflict is in the classroom or at home).
    I can recall a situation in which one of my female students would 
come to class with the worst attitude ever; she constantly caused 
problems in the class. Before sending her to the office, I spoke with 
the social worker. I later found out that this young lady had very 
little respect for women because she was habitually abused by her 
mother and eventually was removed from her home and placed in foster 
care. When I realized this, I knew that a harsh punishment would not 
solve the problem with this young girl. I learned that she was a very 
good artist, so the next day in class, we did an assignment in which 
students had to illustrate what they had learned by drawing a picture. 
Each person in the class was assigned a role. Of course, I assigned 
this young lady to be the illustrator (giving her an opportunity to 
showcase her artwork). At the end of class, I commented on her drawing, 
and she was thrilled to know that I liked the picture. We engaged in 
conversation about other things that interested her, but everything 
circled back to art. Without going into detail about her past, she told 
me that drawing gave her an opportunity to escape. Seeing that this was 
her greatest strength, I suggested the following: I told her that when 
she came to class she had to act like a young lady, to do all that was 
required for the class period. Then, if time allowed, I would let her 
draw for the last five to ten 10 minutes of class. I didn't let her 
down, I kept my promise and I maintained consistency with her. As a 
result, she didn't let me down and became one of my better students. In 
this situation, corporal punishment would not have been a solution.
    In addition to the things I have done in my classroom to maintain 
discipline through positive reinforcement, our school has been 
proactive with this approach as well. Among the things that have been 
put in place is a program called ``Caught Doing Something Good,'' which 
recognizes students for doing something good in the school. For 
example, if a student turns in a lost wallet, the student's name is 
announced over the PA system at the end of the day. Students are so 
excited to hear their names announced that they work extra hard to be 
recognized for their positive behaviors. Even though this approach has 
not eliminated all discipline problems, it has given students the 
opportunity to build character and integrity. Three years ago, a 
mentoring program titled G.U.M.B.O.S. (Greater Understanding of 
Multiple Blends of Students) was established. G.U.M.B.O.S. is a service 
organization with a very diverse group of students ranging from star 
athletes and scholars to students who have exhibited behavioral 
problems. Members of this organization are matched with students in the 
elementary and junior high schools to serve as mentors. Ironically, the 
students who caused the most behavioral problems often made the best 
mentors. Their behavior changed as a result of being a part of a 
respectable group, which gave them a sense of ownership and acceptance, 
and made them feel important.
    I could go on and on about the different programs we offer our 
students to reinforce positive behavior, but I realize that time is 
limited. However, I can say that having these programs in place has 
been far more effective in maintaining discipline than using corporal 
punishment or other negative alternatives.
    My job as a teacher is to provide my students with the necessary 
skills they need to be productive citizens. In most cases, these skills 
go beyond what is found in the textbooks. What makes me feel good about 
what I do day to day are the ways in which my students are able to 
resolve their own conflicts without the use of physical force. Most of 
my students come from homes in which they are used to having pain 
inflicted upon them to get desired results. As a result, that behavior 
trickles into the classroom, and they in turn begin to practice violent 
acts to get the results they want, which creates a bigger problem in 
the classroom. Taking a different approach by using other methods to 
show students how they can resolve conflict in a positive manner is 
more effective, because these are long-term life skills that everyone 
needs to know. More importantly, these skills build character and 
integrity, which is something that corporal punishment fails to do.
    In sum, corporal punishment does not work and in my opinion should 
be banned. In each of the examples provided, it was positive 
reinforcement, building on student strengths, and fostering nurturing 
relationships between teachers and students that extinguished unwanted 
behaviors. Administration of corporal punishment perpetuates 
unnecessary reassertions of adult power and control, it humiliates 
students, and it results in little or no change in student behavior.
    Fortunately, the principal of my school has moved away from 
corporal punishment. Yes, we still have discipline problems, but our 
principal works really hard with our social worker to ensure that 
students have an opportunity to improve their behavior by using 
positive reinforcement before other steps are taken.
    As I close, I am proud to say that in 2011 we will be moving into a 
brand-new high school. For the first time, I will have a true science 
lab. I am excited and the students are excited. Moving from an 
antiquated building into a modern building is going to mean a lot for 
these students. Most importantly, they can walk into a new school with 
a sense of dignity and pride.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Ms. Gilbert.
    Ms. Pee?

STATEMENT OF LINDA PEE, PARENT OF STUDENT WHO RECEIVED CORPORAL 
                           PUNISHMENT

    Ms. Pee. Chair McCarthy and members of the subcommittee, 
thank you for the opportunity to testify at this hearing on 
corporal punishment. My name is Linda Pee, and I am pleased to 
join you to discuss how corporal punishment had a negative 
effect on my daughter Audrey and how my efforts to protect her 
from this practice were unsuccessful.
    My daughter Audrey attended school within Webster County 
School District in Mississippi from second until 12th grade. 
Audrey moved to East Webster High School in sixth grade. That 
first year they sent a discipline form home with Audrey, 
letting parents opt out of corporal punishment. You fill it out 
and send it back with the child, and you can check a box saying 
whether you don't want your child hit in school. I said it was 
okay for her to be punished, because it never occurred to me 
she would be injured from it. I thought she would be safe at 
school.
    When Audrey was in the sixth grade, she was paddled for the 
first time. In general the paddles are wood and about 15 inches 
long with a handle at one end. The gym coach paddled her for 
being tardy for gym class. There were 10 kids late for class 
that day, and the coach lined them up and hit them on their 
behind in front of the other students.
    When Audrey got home that day, she was pretty upset. She 
told me that she had gotten one lick. She had purple bruises. 
You could see the mark of the paddle across her buttocks. I was 
shocked and infuriated. I couldn't believe that one lick could 
make marks like that. I was so upset I called my sister, who 
said I needed to take her to the emergency room, and so that is 
what I did.
    After that incident I made it clear to the school that I 
didn't want Audrey paddled again. I went in the next day and 
talked with the principal and the teacher that hit her. I made 
it real clear they had better not lay another hand on my child, 
and there weren't any problems for a few years.
    But the atmosphere in the school was really one of 
intimidation and fear. My daughter would see children paddled 
all the time. She said the teacher who hit her, who became the 
new principal, would leave the door open so people could see 
that he was hitting children.
    At the beginning of Audrey's 12th grade, I got a form from 
school asking if I gave permission for corporal punishment. I 
was offended they had even sent this form to my home, because I 
had already made it so clear in my wishes. But I completed it 
anyway, and I put a huge X on the box for no paddling and sent 
the form back to school.
    In March 2007, only a few months before Audrey was to 
graduate, she was paddled again by this principal, the same man 
who was directly told before that I objected to the school 
using corporal punishment. She was hit for violating the dress 
code, because she was wearing sweatpants that fell between her 
knees and her ankles. She received two blows from the principal 
in his office, and she was paddled in first period and had 
bruises all over by third period.
    I got her into the doctor's office, and he documented the 
welts and bruises. I called the superintendent and told him 
what happened. I didn't understand how they could paddle her 
when I had signed the form telling them not to. I was so upset, 
but the school said they couldn't find the form. I trusted the 
school to keep the form safe in a file.
    After Audrey was paddled again, I tried everything I could 
to think of to protect my daughter. I went to the sheriff's 
department to file charges. I went to the school board meeting 
to talk about it. I filed a complaint with the State Department 
of Education, but nothing happened. And I have tried to pursue 
a court case, but we couldn't get anywhere. There is immunity 
for teachers who paddle in school.
    I was left with no options. They bruised my child and 
injured her twice. And I tried to protect her by opting her out 
of this horrible type of punishment, but in the end I was 
unable to. This child is a gift from God that I vowed to 
protect.
    In schools, education should be the primary focus. The 
school should be a safe place. There are other ways to change 
behavior of children in school. I remember when Audrey was in 
elementary school and she got in trouble for talking in class. 
I told the teacher, ``Well, if you keep her in from recess and 
give her a little extra work to do, I think that will take care 
of that,'' since social time was what was important.'' And it 
did.
    I don't think anyone should be hitting anyone else's 
children. It is not the type of decision teachers or principals 
should make. It is too complicated, and too much can go wrong. 
You can't know what mood the teacher is in, whether he is mad 
or swings too hard. This just shouldn't happen in school, and 
not to anyone's child. Thank you.
    [The statement of Ms. Pee follows:]

    Prepared Statement of Linda Pee, Mother of Student Who Received 
                          Corporal Punishment

    Chair McCarthy, Ranking Member Platts, and Members of the 
Subcommittee: Thank you for the opportunity to testify at this hearing 
on corporal punishment and its effects on academic success. My name is 
Linda Pee, and I am pleased to join you today to discuss how corporal 
punishment had a negative effect on my daughter, Audrey, and how my 
efforts to protect her from the practice were unsuccessful.
I. Personal Background
    I was born in Maben, Mississippi, and until July 2009, I lived in 
Cumberland, Mississippi. My daughter, Audrey, attended schools in the 
Webster County School District from second grade until twelfth grade. 
Audrey moved to East Webster High School in sixth grade. That first 
year, they sent a discipline form home with Audrey letting parents opt 
out of corporal punishment. You fill it out and send it back with the 
child, and you can tick a box saying you don't want your child hit in 
school. You also have to sign the handbook, stating you read the rules. 
I signed saying it was OK for her to be punished, because it never 
occurred to me she could be injured from it. I thought she would be 
safe in school.
II. Paddling Incidents
    When Audrey was in sixth grade, she was paddled for the first time. 
The paddles they use look sort of like a flattened baseball bat--
they're a piece of wood about 15 inches long, three inches wide, and an 
inch thick, with a handle at one end. The gym coach paddled her for 
being tardy for gym class. There were 10 kids late for class that day, 
and the coach lined them up and hit them on their behinds in front of 
the other students.
    When Audrey got home that day, she was pretty upset and she told me 
that she had marks on her behind. When I saw the mark of the paddle, I 
was shocked and infuriated. I just couldn't believe it. She told me 
that she got one lick. I couldn't believe that one lick would make 
marks like that. I was so upset I called my sister, who said I needed 
to take her to the emergency room. So that's what I did. She had purple 
bruises--you could see the mark of the paddle across her buttocks.
    After that incident, I made it clear to the school that I didn't 
want Audrey paddled again. I went in the next day and talked to the 
principal. I made it real clear that they'd better not lay another hand 
on my child. And there weren't any problems for a few years.
    Audrey was an OK student--she had some trouble in math--but she had 
no major disciplinary incidents between sixth and twelfth grade. But 
the atmosphere in the school--it was really one of intimidation and 
fear. My daughter would see children paddled all the time. She said the 
principal would leave the door open so people could see that he was 
hitting people. Some kids get upset and angry when they see their 
friends paddled. And some kids become used to it, as if it was just OK 
to see their classmates being hit. But to me, it just doesn't seem 
right for kids to see that in school, for them to learn that this is 
OK. This practice can really injure kids, it injured my daughter.
    I remember, at the beginning of Audrey's twelfth grade, I got a 
form from the school, asking if I gave permission for corporal 
punishment. I was offended they had even sent the form home, I had 
already been so clear in my wishes. But I completed it anyway and sent 
it back--I put a huge ``X'' on the box for no paddling, and sent the 
form back to the school.
    In March 2007, only a few months before Audrey was due to graduate, 
she was paddled again. She was hit for violating the dress code, 
because she was wearing sweatpants that fell between the knees and the 
ankles, in violation of a new rule stating that students could not show 
their ankles at school. She received two blows from the principal in 
his office. She was bruised again, she had bruises all over her behind. 
She was paddled in first period and she had bruises all over her by 
third period. I took her to the doctor's office and he documented the 
bruises, and we went to the sherriff's department.
    Audrey didn't want to tell me what happened; she knew I was going 
to be mad. And I was mad, I was upset. I called the superintendent and 
told him what happened. I didn't understand how they could paddle her 
when I'd signed the form telling them not to. I was so upset. But the 
school said they couldn't find the form. I trusted the school to keep 
this document safe in its files.
    After Audrey was paddled again, I tried everything I could think of 
to protect my daughter. I went to the sheriff's department, to file 
charges for assault. I went to a school board meeting and tried to talk 
about the issue, but nothing happened. I filed a case with the State 
Department of Education, but I got an email back saying I should go 
through the local body. And I tried to pursue a court case. But we 
couldn't get anywhere--there's immunity for teachers who paddle in 
school. I was left with no options. They bruised my child and injured 
her twice. I tried to protect her by opting her out of this horrible 
type of punishment, but in the end even doing that, I was unable to 
protect her and the school still hurt her.
III. Protecting My Child
    In schools, education should be the primary focus. You want to feel 
like you're sending your child to a safe place. You certainly don't 
want your child injured and bruised. It's crazy. The school should be a 
safe place, not a place where your child gets injured.
    What hurts most about this is that I tried to do everything I could 
to protect my child, but that wasn't enough. This child is a gift from 
God that I've vowed to protect. She's my life. I've been divorced for 
13 years. When Audrey was growing up, it was me and her. It hurts that 
I feel like I haven't protected her. In the end, no parent should have 
to be worried about that.
    There are other ways to change the behavior of children in school--
that would have been better for Audrey. I remember when she was in 
elementary school she got in trouble for talking in class. I told the 
teacher, if you keep her in from recess and give her some extra work--
that will take care of that. And it did, because social time was 
important to my daughter.
    I don't think anybody should be hitting anybody else's children. 
It's not the type of decision teacher or principals should make--it's 
too complicated and too much can go wrong. You can't know what mood the 
teacher's in, whether he's mad and swings too hard. And you can't know 
how it'll affect a child, whether a child will be bruised or injured or 
worse. This just shouldn't happen in schools--not to anyone's child.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Ms. Pee.
    I think one of the issues that I certainly have a problem 
with is that so many of us have spent time to reduce domestic 
violence, child abuse in every form, whether it is on the state 
or the local level, and yet here we have corporal punishment 
still going on in this country.
    I still don't understand why someone in a school, which 
should be a safe place to be, would still agree that corporal 
punishment works, to hit a child, to beat a child. That is the 
part I am having a hard time understanding.
    I know that this will be a difficult subject for us to deal 
with here in Congress. I know there will be many battles going 
forward on why we should have corporal punishment, or it is a 
state right to have corporal punishment. But I believe that 
this is something that should be banned in this country. We are 
better than that. There are better ways to handle children that 
have discipline problems.
    I guess the question that I will ask all of you on my first 
round, does this punishment contribute in any way, a positive 
way, to academic achievement or school climate? Could you sum 
up for me why in your opinion it is important for Congress to 
act to ban corporal punishment in schools. I know each of you 
have touched upon it, but a lot of times in 5 minutes you can't 
put everything out that you would like to talk about.
    Doctor, if you would like to go first?
    Dr. Greydanus. First, I think it is important to realize 
that this is a historical perspective. As I mentioned, when 
this country was founded, it was founded on principles from 
Europe, England particularly, where corporal punishment at that 
time was accepted, so it just was natural to fit in. ``Well, if 
it is good there, let us do it here.'' And it was never really 
challenged.
    People assumed, ``Well, if I hit a child, they will 
behave.'' And there was very little research going on. So there 
has been a long history of this and a tendency to ignore the 
research.
    I think the second point is that the research which has 
been done--and I think it is important to stick to that and 
just say it would make sense not to hit a child, but in 
addition, if you are interested in improving the behavior, 
there are some teachers, principals, whomever in the school 
would hit a child out of an attempt to improve them. ``You are 
not listening to me. I want to improve you.''
    This may be a youngster with attention deficit disorder. 
This may be a youngster with other problems that is impairing 
their learning, and the teacher becomes frustrated, the 
principal becomes frustrated, and so they want to do something. 
And they feel--some of them--that this will improve things.
    What I think Congress has to realize is that this attitude 
is continuing in this country. We have 20 states that still 
allow this, although within some of these states certain school 
districts have gone into this and tried to prevent this. And it 
is often the disadvantaged kids that get hit. When they have 
tried to go through the court system for a variety of reasons, 
they get turned away. They have not been protected.
    So I think it is important for Congress to realize that 
there are millions of our children who are being physically 
hurt in this way, not just paddling, but a variety of methods. 
And if Congress is interested in the academic success of the 
children--I know they are--this is not the way to do it, that 
this is the opposite will occur.
    And so if the school is doing something--the school 
officials--that is hurting the academic success of the student, 
they need to stop that. Schools are there to educate. I think 
when anyone looks at this, if they look at historical or other 
perspectives, they have to realize that those perspectives are 
wrong, that today we know from clear research, the vast 
majority of work done in behavioral sciences.
    Now, no research is perfect. You can always take one study, 
and I do that as a teacher with my students, and I can say, 
``Let us look at this study and let us look at what is good and 
bad about it.''
    There is no perfect study, but the vast majority of the 
literature, which is supported by the American Medical 
Association, the American Academy of Pediatrics, the Society 
for Adolescent Medicine, and a wide range of medical and 
educational and other firms have looked at the data and said, 
``You know, it is true. When you hurt a child,'' as I said in 
my testimony, ``it destroys their ability to learn.'' You turn 
out an angry, bitter individual, who has not only physical 
problems, as we heard, but severe mental problems, which they 
carry throughout their life.
    So I think that--and we are a violent enough society. The 
place to try to correct some of that violence is in the school. 
If we allow it to happen, it just--things it makes worse. And I 
think Congress should act, because we are now 200 and plus 
years of our country. It hasn't happened. So it is time to 
protect the children, as I said in my remarks, that are in 
school today and will be in school for the rest of this 
century. And the impact of those children on their learning 
will be enormous.
    Chairwoman McCarthy. Thank you, Doctor.
    Ms. Frieler?
    Ms. Frieler. You asked if there is ever a time when 
corporal punishment is effective. I can tell you no. In my 
opinion there is not.
    Schools are institutions of learning. Sometimes that is 
textbooks and subject matter, and sometimes that is life. And 
where I think it is really important, schools have a 
responsibility to teach our young people to be productive 
members of society. And when you throw, like in my school, 
2,100 students from many different countries together, you have 
to teach kids how to get along. And that is a skill that they 
will learn not only in school and use not only in schools, but 
in life.
    And I think it is very important that you establish the 
right climate, and that is one of trust and one of security. In 
my testimony I mentioned the hierarchy of needs with Abraham 
Maslow, and it is important, because if kids don't feel safe, 
they can't learn.
    And so I think corporal punishment impedes that. It creates 
an environment of fear, where that learning doesn't happen and 
where kids don't become productive members. They learn that 
violence is okay, and they carry that throughout into adult 
life. And that affects communities as a whole and affects our 
entire country as a whole.
    I would urge Congress to very seriously consider abolishing 
corporal punishment in schools.
    Chairwoman McCarthy. Thank you.
    Ms. Gilbert?
    Ms. Gilbert. Your question was did the use of corporal 
punishment have an effect on academic success in the classroom. 
And in my opinion, I think it does. My job as a classroom 
teacher is to ensure that all my students are successful, and 
if they have been administered corporal punishment, oftentimes 
those kids come back into the classroom, and they are hostile, 
which causes more problems not only for you as a teacher, but 
for other students that are in the classroom.
    There have been several situations where I have actually 
talked to my students. In a lot of our kids, there is a lack of 
trust of the community. There is a lack of trust in the home. 
Many of the parents, as I mentioned in the testimony, are very 
young, and as a result a lot of the kids are acting out, 
because they want to be accepted. They want to have a sense of 
ownership. They want to feel important. And paddling or the use 
of corporal punishment is not doing that.
    Some kids that come from backgrounds where they have been 
beaten all the time, so if you administer at school, I mean, 
oftentimes the kids, the children have become desensitized to 
pain, so you are not really correcting the problem. And as Ms. 
Frieler mentioned earlier, we want our students, we want our 
children to be able to be productive citizens in society. And 
in doing that, you know, that goes beyond the textbook. That 
goes beyond the classroom lecture.
    Students need to be able to solve their conflicts, know how 
to sit down as adults and work situations out, because, I mean, 
if they are in an environment where there is violence, and if 
the only way they learn to handle that is through violence, we 
are creating a cycle that could explode.
    And I honestly feel that we should reconsider this. 
Corporal punishment should be banned. We should look at 
programs for parents. If we have younger parents, try to 
provide more parental programs to train parents how not--you 
really can't get into the household, but to train parents or to 
provide, you know, some type of support system for young 
parents, so that way, when they are disciplining at home, that 
discipline will trickle down into the classroom, where there is 
no issue that teachers are dealing with, because when we are 
facing, it is really hard as a classroom teacher to teach, and 
then you have discipline problems.
    And then you can't counsel or you--and you end up 
counseling, but there are so many other issues that we need to 
deal with. And corporal punishment in my opinion is not the 
answer.
    Chairwoman McCarthy. Ms. Pee?
    Ms. Pee. I don't think there is ever an opportunity where 
corporal punishment is appropriate or helpful. My daughter 
became fearful of going to school. She was fearful of the man 
that injured her. With the environment of intimidation and 
fear, there was always the fear of am I going to do something 
wrong. I don't think there is ever an opportunity where it 
should be appropriate.
    Chairwoman McCarthy. Thank you.
    Mr. Guthrie?
    Mr. Guthrie. Thank you. Thank you very much.
    And thanks for coming to share your story, Ms. Pee. I know 
it is difficult sometimes and to come here and be in Washington 
and testify. I know that is----
    Ms. Pee. Yes.
    Mr. Guthrie. I appreciate you doing that.
    And, Ms. Gilbert, thank you for the--any time you can reach 
in and bring something out of a student like you did with the 
art and make it a positive experience, I think that is great. 
My wife went to the University of North Alabama, so A&M was a 
big rival, but it was a friendly rivalry. We always loved those 
games. It was always fun.
    And then, Ms. Frieler, you were talking earlier on 
punishment and discipline, and I know the difference, corporal 
punishment, physical punishment. And you used that term 
differently, and take corporal punishment off the table, but 
punishment and discipline. And what would you do when a child 
violates the rules and the positive stuff hasn't worked? What 
does your school--how do you handle that? What type of 
disciplines, I guess, is the question.
    Ms. Frieler. Well, I would say that discipline is a lot 
like learning, and if the student doesn't know how to read, you 
provide interventions for them to make sure that the outcome is 
that they can read. The same thing is true with discipline. If 
a student doesn't understand or chooses to not follow a rule, 
they have a consequence. If that continues, the consequences 
change, based on the severity of what happens to them.
    I have a whole variety of things that I can do. There is a 
code and conduct policy in our district that we follow, which 
is progressive. There is nothing in there that is physical, 
however, but it is a lot of communication with families.
    If that doesn't work, we do have a social worker that helps 
us as well. There are times when we have to look at alternative 
placements for kids. That could be, depending on the severity 
of the situation, it could be a brief incarceration. It could 
be an expulsion.
    But our district also has programs for kids who are in 
those kinds of situations. And, you know, most of the times 
once that consequence is taken care of, they come back to my 
school, because they know it is a fair school to come to.
    Mr. Guthrie. Do you mean incarceration for school 
infractions or something outside of school that is bigger than 
that?
    Ms. Frieler. It would depend on the severity of what 
happened and where it happened.
    Mr. Guthrie. Thanks.
    And then for Dr. Greydanus, I know on the studies in the 
physical, obviously, if you are not doing corporal punishment, 
you wouldn't do physical. But what about other disciplines that 
people have? You said that there is physical and emotional 
stress. So if we are looking at other disciplines used in the 
school, would studies say that that is causing emotional 
stress?
    And I am just trying to figure out exactly--I know what you 
are saying about corporal punishment. I understand that, and I 
sympathize with that. I agree with that. But if we look at 
every other type of discipline in the school and say, ``Well, 
that is going to cause some emotional stress,'' where do we 
draw the--what is a good play to draw lines, as you said----
    Dr. Greydanus. Well, the big difference is with corporal 
punishment, you are inducing physical pain, and it is very 
clear that if you induce physical pain, if a larger person, a 
person in authority, inflicts physical pain on someone who 
typically is a child----
    Mr. Guthrie. I understand. I am just saying but a non-
physical punishment can still induce emotional pain.
    Dr. Greydanus. Well, it depends----
    Mr. Guthrie. So where do you draw the line?
    Dr. Greydanus. Yes, I think it depends--sure--on how you 
are going to define the non-physical situation. Teachers spend 
a lifetime learning the best way of communication. What it is 
really boiling down to is what we have all said. Children learn 
in a positive classroom. They bring their problems, their 
issues, good or bad, into the classroom, and then there is a 
teacher with the support of other teachers and the support of 
the principal to induce a positive milieu or environment that 
they can learn.
    Any time you take away that positive environment, somebody 
yelling too much or someone in the classroom misbehaving, that 
certainly can disrupt that. The issue, really, is the physical 
pain causes both physical and emotional problems.
    And then from the viewpoint of the teacher, find out what 
the issue is. The other issue is if there is a behavior that 
you don't like, is it really a problem? For example----
    Mr. Guthrie. I think the question is, because I am going to 
run out of time, best practices on how to discipline, because 
there are kids that just won't follow the rules. And whatever 
reason happens, outside the home, in the home, or whatever the 
reasons are, I mean, what are the best practices?
    Dr. Greydanus. If children do not obey the rules--and first 
that the rules are appropriate. Teachers have to establish 
sometimes. There was a famous court case where kids were 
giggling in a classroom in a hallway, just because kids will 
giggle, little girls, and then so----
    Mr. Guthrie. Can you get water when you didn't get 
permission to get water----
    Dr. Greydanus. Is the behavior really that a problem?
    Mr. Guthrie. Some would say it is.
    Dr. Greydanus. And teachers have to learn that. Now, if the 
behavior is, then from the principle of counseling, you have to 
find out why the child is ``misbehaving.'' What is the 
underlying issue? Do they have attention deficit, and they 
can't concentrate in the classroom? Do they have dyslexia, they 
are unable to read? Are they in a math class where they have 
severe math disability? Or are they having personal problems?
    Research shows that 20 percent of our children have mental 
health problems--depression, anxiety, a whole variety of 
issues. The issue is you have to find out why the child is 
misbehaving and then apply the appropriate treatment. Sometimes 
a teacher can be taught how to handle that. Sometimes, as we 
heard earlier, the student is beyond the control of the teacher 
or the school, and then we have alternatives.
    No teacher can help every child, but you find out why. And 
I spend a lot of my time in schools or consulting with schools 
or kids will refer to me in my teaching practice at my 
university, and we find out what is the problem. We do an 
intensive investigation of the family, of the individual, their 
learning ability, their mental health, physical, and you find 
out.
    If you find out what the issue is, you can usually devise 
the proper classroom. Sometimes they are in their own 
classroom, so--but you have to find out why. Before you hit the 
child--you shouldn't anyway--but before you react, you have to 
find out what is the problem.
    The opponents against this will say, ``Well, we don't have 
time for that.'' Well, that is your job as a teacher. My job is 
to find time to work with my patients coming in and take the 
time to deal with the issues. It is leadership, the teacher and 
the school, to take the time to find out why this youngster 
isn't learning.
    Mr. Guthrie. Thanks. I believe my time----
    Dr. Greydanus. It is a great question. It is not easy, but 
we can work together to do that.
    Mr. Guthrie. Okay. Thanks.
    Dr. Greydanus. Thank you.
    Chairwoman McCarthy. Thank you, Mr. Guthrie.
    Ms. Shea-Porter?
    Ms. Shea-Porter. Thank you.
    And thank you for your testimony today. But before I even 
started school, I was afraid of school, because my brothers and 
sisters told me that I would get beaten, and they were right. I 
was beaten, and I was too afraid to even pick my head up when 
we were taking a test or working on anything.
    But one day apparently the two kids next to me, who never 
got a 100, got a 100, and I had a 100 also, and so they assumed 
that I had shared my work. And I remember that day like 
yesterday, that we were slapped. We wore cheat hats. We had to 
stand in the back. And this does stay in your memory. So I 
appreciate very much your being here and sharing the stories 
that you know.
    So I wanted to ask each one of you a question.
    Dr. Greydanus, I appreciate what you are doing, but what is 
happening with the pediatric community, with the physicians? 
Are they educating parents, telling them that this is something 
that they need to watch out for? Are they being advocates? What 
exactly is happening in the world of pediatricians, who are 
most likely to see or hear, or at least be able to ask a child?
    I never told my mother, by the way. My sisters and brothers 
and I just told each other. We never told our parents, even 
though we had a good relationship with them, because we were 
afraid.
    Dr. Greydanus. Well, that is a great question. I am also a 
member of the American Academy of Pediatrics, and I have done a 
lot of work with them. I--a book for them on caring for 
teenagers. And the answer is that a lot of education is done 
through American Academy of Pediatrics and to the pediatrician.
    I am also a pediatric program director. I train students to 
become pediatricians. And in our training we spend a lot of 
time working with them in schools, and there is a discipline 
called the school physician or school pediatrician, where you 
actually--our students and the residents will go into the 
school, meet with the teachers, meet with the principals, and 
establish a dialogue and by their finding out what is going on.
    Part of the curriculum is helping not to be a teacher and 
educator, but to help the parents and the child work. And I get 
constant referrals from kids that are school failures, doing 
poorly, who come into my clinic, because that is the type of 
work that I do, and I work with my residents, and we help them.
    So, yes, I think that the busy pediatrician is aware of 
this issue. They counsel parents how to raise kids. We counsel. 
If the school asks us, we work with the kids. So I think there 
is a lot that we are doing in terms of trying to teach anyone 
that will listen--the schools, our kids, the schools 
themselves, to help reduce the violence that they are seeing 
and also find out--again, the issue is why is the child 
misbehaving? And find out a reason. And usually you can find 
out why and implement some type of a help. And pediatricians 
are aware of this and are certainly trying----
    Ms. Shea-Porter. Another point is sometimes the children 
aren't misbehaving at all. I mean, those two kids got a 100, 
and I got dragged into whatever it was, and I will never know.
    Dr. Greydanus. Yes.
    Ms. Shea-Porter. But I----
    Dr. Greydanus. Many of the court cases that are famous in 
this, from the Ingraham one that was mentioned, others that are 
in my testimony, had to do with kids giggling in a classroom.
    It is also what we train the teachers, we train students, 
everybody, is that some ``acting out'' is normal behavior. It 
is actually when you become a teenager. In order for you to go 
from a child to an adult, many kids go through a phase of some 
rebellion, partly because their brain isn't fully developed. 
They develop issues with puberty. A lot of things take place, 
and they need someone to help them. And some acting out is 
simply normal. That is why----
    Ms. Shea-Porter. I would hope that they would know that a 
lot of kids, as close as they might be to their parents, will 
not say anything and that the pediatrician--I think I was, 
like, 7 years old--and so, you know, it was a religious order 
as well, so they seemed to have flown in from above, and we 
were frightened of them.
    So it would be very helpful if the pediatrician is included 
that in sort of the general, you know, conversation with kids 
when they are small, because they feel like they can say it. My 
parents were horrified when they found out.
    Thank you very much.
    And, Ms. Frieler, I wanted to ask you are you having any 
problems in your district, because you refuse to use corporal 
punishment? Is this something that is catching on, or is the 
state generally ignoring what is happening in your district?
    Ms. Frieler. I don't have any problems with that. In fact, 
our district policy doesn't allow it. You know, we can only use 
physical intervention if the student is in danger of harming 
themselves or somebody else. But we are not allowed to use 
corporal punishment. I am trying to think of an area in 
Colorado where it is actually there. I suspect it might be a 
rural area, but I know in the major metro areas of Colorado, it 
isn't allowed, and there are district policies against it.
    Ms. Shea-Porter. Okay.
    And I had one last question. Ms. Gilbert, is there some 
kind of hotline for teachers? Is there a place where teachers 
can call to get some extra assistance, if they really don't 
want to identify themselves, but they feel like they are, you 
know, often right on the verge of losing control? Is there a 
number that they can reach out and feel confident that they can 
get some help without actually having to identify themselves? 
And would that warrant that?
    Ms. Gilbert. No, as of now there is not anything in place 
for teachers. We communicate amongst ourselves, but there is no 
outlet or hotline to, I guess, to vent or if there was any 
issues. No, we don't have that.
    Ms. Shea-Porter. Do you think that would be helpful for 
those that might not want to talk right away to their peers and 
identify themselves?
    Ms. Gilbert. I think--identify themselves in terms of 
being----
    Ms. Shea-Porter. Of just feeling like they are right on the 
edge, you know, that they are----
    Ms. Gilbert. I think it will be very helpful. I mean, I 
think a lot of teachers get burned out easily, because we are 
dealing with different issues, and if every district has its 
own set of issues, the teachers are beginning to get burned out 
a lot easier, a lot quicker. And I think a lot of it has to do 
with discipline issues and, you know, other things or whatever. 
And I think if there was a sort of hotline, that teachers 
could, you know, to speak out for, you know, to vent or 
whatever, I think that will be very helpful.
    Ms. Shea-Porter. Thank you.
    Ms. Gilbert. You are welcome.
    Ms. Shea-Porter. I yield back.
    Chairwoman McCarthy. Thank you.
    I just want to mention that Monday I was in one of my grade 
schools, which had started a program a year ago. This committee 
deals with childhood nutrition, and some of us have been trying 
to push physical education in that. One of the classrooms that 
started just about a year ago now, 10 minutes three times a 
day, especially in the lower grades, they stand by their desks, 
and they do physical activity. With it is a lesson plan on 
history or, you know, they pick up rocks, but these are all 
exercises.
    One of the questions I had to a number of the teachers was 
how was the discipline in the classroom. And they said it 
changed like night and day. Children have a lot of energy, as 
we all know. So there are ways that we can hopefully work 
towards the end that would even lessen the stress in the 
classroom.
    Mr. Platts?
    Mr. Platts. Thank you, Madam Chair. And I apologize for my 
late arrival.
    Very much appreciate each of you being here today and 
sharing your oral testimony as well as your written testimony.
    I am a parent of a seventh grader and a fifth grader, and 
so, Dr. Graydanus, I appreciate your statement that I think you 
said some acting out is normal, and we should understand and 
appreciate that. I can well attest to that as a parent of two 
very active boys, who are great students and very well behaved 
most of the time, but they are kids, and we need to understand 
that and how we respond at home and in the classroom.
    I want to start, Ms. Gilbert. You talked about how you have 
kind of turned your classroom around and the school, and your 
principal has turned the process around in discipline and wish 
you well and understand this coming year is going to be in the 
new building.
    Ms. Gilbert. 2011--that is the plan.
    Mr. Platts. Yes, I hope that goes well. And that has got to 
be an exciting time for you as a teacher.
    The engagement--one of the things that I didn't see in your 
written testimony, and you may have addressed this, but the 
engagement of parents. You mentioned that you have a very 
transient student population, so I am sure that is harder to 
make those connections with parents in that type of setting, 
and also single parent homes that you mentioned have a high 
percentage.
    Is there an organized effort in your building, or is it, 
again, just to you as an individual teacher in how to try and 
engage parents when you do have a disciplinary issue in 
addition to what you do with the student in the classroom, how 
you inform or engage a parent to hopefully complement and back 
up what you are doing and not erode what you are trying to do?
    Ms. Gilbert. Well, as I mentioned, we do have a social 
worker, and the social worker has played an intricate role in 
trying to get parents involved. There is no set program as of 
now, but under the principal and the social worker have worked 
together on trying to create programs to get the parents more 
involved. Our social worker has visited homes. He has been very 
involved with talking to the teachers and kind of giving us 
feedback on some different issues that the student may be 
facing.
    Mr. Platts. Yes.
    Ms. Gilbert. And that kind of helps you to, I guess, deal 
with the situation a little bit better when you know the 
child's background.
    Mr. Platts. Yes.
    Ms. Gilbert. I really believe in strong parenting, and I 
think that, you know, we are falling from that to a certain 
degree. The village is no longer in existence. You have a 
community school. You have the parents aren't interacting with 
teachers in the communities, because a lot of times the 
teachers no longer live in the communities in which they teach, 
and so there is a disconnect.
    You know, a lot of our kids are suffering. They have no 
sense of identity, no sense of character. And a lot of that 
goes back to if these things were instilled in them, they would 
respect themselves a lot better, and that is something that we 
are lacking in our schools and in our homes. You know, 
education means to bring out something, and you can't bring out 
something when there is nothing here. So I think getting 
parents involved will be a tremendous difference in what 
happens in the schools.
    Mr. Platts. I couldn't agree more, and your example of the 
young lady that when you empowered her as your aide or, you 
know, student aide, and the sense of self-worth that she 
obviously took from helping you that she apparently wasn't 
getting elsewhere, and especially at home, is a perfect example 
of that.
    And I think it is one of the challenges of schools today 
that all too often you are not just an educator. You are the 
disciplinarian. The school is the provider of the meals, health 
care, you know, everything. And, you know, that is a tremendous 
challenge, so that empowering of students, as you are doing, I 
think is key.
    Ms. Gilbert. Can I say one more thing?
    Mr. Platts. Yes.
    Ms. Gilbert. An incident just happened last week. There was 
a young lady and a young man in the hallway, and they were both 
exchanging profanities towards each other in a playful way. 
Typically, you know, that meant them written up and personally 
taking them to the office. So I took the young lady and said, 
``Young ladies shouldn't respond that way. A young lady 
shouldn't use profanity. If you want them to respect you, you 
have to first respect yourself.'' And she said, ``Okay,'' you 
know.
    Well, at the end of the day we were walking out. I was with 
the school librarian, and this young lady touched me and she 
said, ``You know what? You taught me something today.'' I mean, 
I wanted to cry, because that meant more to me than, you know, 
writing her up, sending her to the office----
    Mr. Platts. Yes.
    Ms. Gilbert [continuing]. And having her suspended or 
paddled or whatever. And that just happened last week, as a 
matter of fact.
    Mr. Platts. Well, my youngest sister--I am the fourth of 
five, and the fifth of five, my sister Jill, is a teacher, now 
social worker in the school for one of my local school 
districts. And she is the perfect person, and it sounds like 
similar to you. She has a heart of gold, but she won't take 
anything from everybody.
    And it is finding that balance of when the heart needs to 
come through versus, you know, the being a little more stern or 
strict in dealing with especially the families and, as you 
said, learning the environment from which some of these 
children are coming. And they are not learning respect and 
discipline at home, and you are helping to do that.
    That had to be extremely rewarding to----
    Ms. Gilbert. It was.
    Mr. Platts [continuing]. End that day.
    Madam Chair, if I can squeeze in.
    Ms. Pee, your interactions with the school board and 
principal and things, obviously, not satisfactory in 
interaction. One of the things I am curious whether it ever 
came up in your dialog with the school board how to prevent 
what happened to your daughter, where you had clearly made your 
thoughts known--no, I do not want corporal punishment--
especially after what happened the first time, and yet it 
happened.
    Did they consider a reverse? You know, now they are 
requiring you to send a form in to give that you are okay, that 
they have a policy that unless they have a form on hand, they 
may not engage in it, so in other words it is not, you know, 
you coming in saying, ``Hey, I disapprove,'' but before they 
could go and engage in a corporal punishment with a student, 
that they would have to say, ``Yes, here is the form. You can 
engage in the punishment.''
    Ms. Pee. No, actually, what they did was change the policy 
of wherein the parent has to physically come to the school and 
sign the form stating they cannot receive corporal punishment.
    Mr. Platts. So that actually is a positive. It is erring on 
the side of no corporal punishment unless a parent makes extra 
effort to come in person and--and approve it.
    Ms. Pee. And if they do not want their child to receive 
corporal punishment. You know I am not sure----
    Mr. Platts. The form they sign is saying they do not want 
it, so meaning they assume that you can engage in corporal 
punishment unless you come to the school and say no.
    Ms. Pee. Exactly.
    Mr. Platts. So it is the opposite of what it should be, in 
my opinion.
    Ms. Pee. Exactly. And in my opinion as well.
    Mr. Platts. Yes. That is pretty amazing. I would think 
especially today with the knowledge we have that they would err 
on the side of no corporal punishment unless you proactively 
approve it.
    Ms. Pee. Yes. It seems they made it harder for those 
parents who do not want corporal punishment administered on 
their children and made it even harder for those parents to opt 
out of corporal punishment.
    Mr. Platts. Yes. Sounds like we need to get this panel to 
do a road trip and visit your school district----
    Ms. Pee. That would be great.
    Mr. Platts [continuing]. And share your knowledge.
    Ms. Pee. That would be great.
    Mr. Platts. I know I am over my time. I want to just thank 
you again and especially your written testimony. With being 
late for the oral testimony, to have your expertise and 
knowledge is very helpful. To all of you and especially in the 
scope within the classroom, you know, I think of teaching as a 
very high calling.
    And I just wrote a note on a letter I signed this morning 
back to a constituent, who I never had, but was a teacher at my 
high school for 30 years. And the note on it was that I readily 
admit that any successes I have had has been attributable to my 
parents' upbringing and my education K-12 in that school 
district, York suburban.
    And so the difference you are making, like that young lady 
just last week, will benefit them for the rest of their lives. 
So thank you.
    Yield back.
    Chairwoman McCarthy. Thank you.
    Mr. Polis?
    Mr. Polis. Thank you, Madam Chair.
    This has been a very educational hearing. I was very 
dismayed to see on the list that is an exhibit that corporal 
punishment U.S. schools, Colorado had eight students that were 
beat by their teachers or principals. I certainly hope that 
those teachers and principals involved lost their jobs or were 
reprimanded or held criminally responsible where appropriate.
    But even more shockingly, some states have enormous 
numbers--49,000 kids in Texas were beat up at school by their 
other teachers or principals, and in Mississippi 38,000, which 
is 7.5 percent of the kids in school in Mississippi. So it 
seems like this practice of beating up kids in school by 
teachers and principals is very widespread in Mississippi. And 
this comes as a wake-up call to me. I will certainly be joining 
the chairwoman's bill as a co-sponsor.
    In my experience in Colorado on the State Board of 
Education, I had not heard of this. And this said eight people 
in Colorado were beat. Hopefully, those teachers were removed.
    But there must be many teachers and principals that are 
complicit with this in Texas and Mississippi and Alabama and 
Arkansas and Georgia. And they still have their jobs after 
beating up kids as a regular thing at school.
    I just don't understand it. I mean it is completely 
inappropriate, so I hope that we make sure that kids feel safe 
at school, wherever they attend in this country, especially 
considering that the schools are recipients of federal dollars. 
I think that is an important thing to do.
    But my question is about, you know, in terms of behavioral 
supports, there are many things that schools do to enforce 
discipline, the positive behavioral supports, and they are 
critical. And in the testimony from Ms. Gilbert, she mentioned 
the important role of the school social worker in helping to 
improve the climate.
    Now, one of the problems we face is that not all schools 
have social workers. It has been an area that has been cut 
back. And I am wondering if she can elaborate briefly on the 
importance of school social psychologists and the school 
counselors and improving student behavior and if she has any 
specific suggestions that Congress should address in 
reauthorizing ESEA.
    Ms. Gilbert. I think our social worker, as I mentioned, has 
played an intricate role. Many of our schools in the district, 
we are fortunate to have a social worker because of funding. 
Typically, counselors on a secondary level don't have the time 
to counsel our kids, because they are preoccupied with testing 
and other paperwork, whereas before, you know, I guess years 
ago, their role was different.
    So a lot of the kids or children, students, don't have that 
outlet. And having a social worker present or a school 
psychiatrist has been very--is helpful because it allows the 
children or the students to have someone to talk with. And then 
that person can also serve as a liaison between the students--I 
mean, the teachers as well as the----
    I think that if Congress looked at putting more funding 
into schools and providing schools with a school psychologist 
as well as school social workers, I think a lot of things will 
be eliminated. And that is, you know, that is my view on that 
for some----
    Mr. Polis. I would open it up to the rest of the panel. You 
know, again, there is obviously a need. There is a way to do 
it, and there is a way not to, and there are many successful 
strategies that schools have to deal with positive behavioral 
support, providing a safe climate, discipline, et cetera.
    What can Congress do in ESEA reauthorization to ensure the 
successful implementations of programs in our public schools 
that help to improve school safety and promote student well-
being, both physical and mental? What suggestions do you have?
    Dr. Greydanus. I can speak on a personal level. One of my 
four daughters that I mentioned is an elementary school 
teacher, and she was a consultant on one of my papers I wrote 
on corporal punishment in schools. And I have had long 
conversations with her and other teachers.
    And from her and other teachers I have learned that--and 
the old expression it takes a village to raise a child--you 
can't expect a teacher all by himself, herself, to do 
everything. They have to have support. So if Congress, and I 
know you are, if the government, and I know the government is 
serious about academic success, you have to give the teachers 
enough education, but also the supports.
    In those school where my daughter Marissa is an elementary 
school teacher, they have a social worker. They have a school 
counselor, someone who is identified to help. So this 
particular year she got a very tough class. She moved into a 
new school system, and the other teachers gave her the toughest 
kids. And I have had long talks with her. I have been her 
personal consultant on this. And first, do not hit them, which 
she wouldn't. I didn't hit my kids, and so they have learned 
you don't hit.
    It is frustrating. It is not easy, but they have a social 
worker, they have a school counselor. And then what the teacher 
should do is also the principal, hopefully having a supportive 
principal, is refer them on for more help. Or the teacher can 
call the parent in and say, ``We are having trouble. I don't 
know why. We need to find out what is going on.''
    I get a lot of referrals, for example, in that regard. So I 
think it has to be--and if the school says we do not have the 
money, then there needs to be funding. Parents need to get 
involved. Most parents that I have talked to, when they 
understand that the school needs help, would jump in and 
provide help.
    So it is a combination of the parent being aware of this, 
of the school getting the funding, funding being available. If 
we are interested in the academic success of our children, we 
have to provide the teachers and principals with the help and 
support that they need, both educationally, but also additional 
people. Nobody--certainly, a doctor doesn't do his work all by 
himself. You have a variety of people that--you have a variety 
of help to do your job. They need the same thing.
    Thank you.
    Mr. Polis. Thank you. Just real quickly, I just find it 
remarkable that while many of us here are very concerned 
student safety--I have a bill, the Student Nondiscrimination 
Act, that helped reduce--against kids--here we have situations 
where the teachers and principals are actually beating kids. 
And these are supposed to be the staff of the school that helps 
protect kids and provides a safe learning environment, and they 
are actually perpetrating acts of violence against the kids. So 
I truly hope that we here in Congress and the states can do 
something about this.
    And I yield back.
    Chairwoman McCarthy. Thank you.
    Mr. Scott?
    Mr. Scott. Thank you.
    And I want to thank all of our witnesses.
    Dr. Greydanus, it seems to me the evidence is so clear that 
it is not only not helpful, but actually counterproductive in 
terms of behavior modification. Does the research suggests that 
if our goal was to increase violence amongst children, that 
corporal punishment would be one of the initiatives that we 
would----
    Dr. Greydanus. Yes, if your purpose is to--not that the 
research started out to look at that, but if the research--and 
again, there is a vast majority of research. You can always 
pick one or two papers apart. You can always take a couple of 
papers and say, ``I looked at the students. They are physically 
abused. They were hurt in school, and they are okay.'' But the 
majority of the literature will suggest that that is not the 
case.
    And again, what the research very clearly shows is that 
these children become very angry, and not just the children who 
are hit, but the witnesses. It is witness damage. There was a 
wonderful paper done years ago looking at post-traumatic stress 
disorder. As a Vietnam veteran, I certainly learned a lot 
about, as a doctor, treating people with that.
    It is an educationally induced post-traumatic stress 
disorder that a number of kids get in this and become more 
violent, more angry. Some kids when they get upset, they become 
violent. Some become suicidal and kill themselves. There are a 
variety of ways that human beings react to very difficult 
stress, much like soldiers do, much like the military----
    Mr. Scott. But none of them sound like the reaction is very 
good.
    Dr. Greydanus. The reaction is always negative for their 
physical health, their mental health, and certainly their 
academic well-being for a lifetime is really poor.
    Mr. Scott. We know that all of the witnesses here today 
oppose corporal punishment. Normally, in research there is a 
concept called peer review. If someone had showed up today to 
testify in favor of corporal punishment, what would the 
research community say about their testimony?
    Dr. Greydanus. They would say that they would look at a 
particular study. And I teach my students how to do this, 
because it is a good exercise. As a professor, I can take any 
study and show you the flaws in the study. So what you have to 
do is look at each study is not perfect, but where is it going? 
What is it saying?
    There are a few studies that will say, ``I looked at these 
kids. They had corporal punishment, and I can't find any 
harm.'' That is the minority. And when you look at those 
studies, they are usually not very well done. So those folks 
would say, ``I don't believe that research. I believe the 
minority report.'' And you always have that back and forth.
    What you have to do is say, ``What do the experts--where do 
they fall in line?'' And the American Academy of Pediatrics, 
the American Medical Association, and on and on, have said, 
``We believe the majority of the literature, which shows very 
clearly when you look at it, that these kids are harmed.''
    Mr. Scott. Now, Ms. Gilbert, you mentioned the concept of 
positive--excuse me--positive reinforcement. How does that 
compare to punishment as a strategy to change behavior?
    Ms. Gilbert. Well, positive reinforcement, you are 
punishing a child, but typically with positive reinforcement, 
the one thing I have done, you know, you talk to the child. Why 
are you being punished? Have them articulate why they are being 
punished. There has to be discipline, and oftentimes there is 
discipline.
    But to me, in my opinion, if you change that discipline and 
change it into something positive, start highlighting the 
child's strengths--``Well, you maybe talk in class, but you are 
also good at this''--and take something away from them, but at 
the same time, you give them something that is going to improve 
their learning or improve their behavior.
    Mr. Scott. In terms of behavior modification, when you 
catch them doing something good and reinforce that, are they 
more likely do that again? Are they more likely to continue in 
that good practice?
    Ms. Gilbert. Right.
    Mr. Scott. Dr. Greydanus, there is a concept of primary 
prevention. How does that fit into this discussion?
    Dr. Greydanus. Well, the issue, I think, in terms of 
avoiding prevention, violence, is to prevent the issue in the 
first place, to surround a child with minimal violence in their 
life, whether it be in the school, the classroom.
    As a pediatrician, we teach our residents, and we work with 
our pediatricians to look at the preventive side. It is very 
hard to take the child who has been physically, mentally 
traumatized and has reacted in a very negative way, and then 
turn around and fix this in a quick manner. And some of these 
kids are literally traumatized for life. So the way to start is 
as early as possible in trying to surround that individual with 
as much nonviolence as possible.
    Now, we are a violent world, violent society. That is not 
easy. But the school should always be a beacon, so starting 
with kindergarten, teachers, principals, with other people 
helping them, working with these kids. If they start acting up 
in kindergarten, first, second grade, refer them and find out 
what is the problem. We surround them with prevention. That is 
very important. Don't wait until they are eighth, ninth, tenth, 
eleventh grades and they have been witnessing this for a long 
time.
    The other thing is you can protect the witnesses. As I said 
earlier, that if you witness violence, that can be very 
traumatic to one as well, so by preventing the violence in the 
school system to these individuals, you are also preventing the 
trauma of the witnesses. You are preventing that ongoing mental 
health issues that sometimes you can't see the negative effects 
on a particular student, but the witnesses are having problems, 
because human personality can sometimes react in different 
ways. So prevention is very important.
    Mr. Scott. And if you do a good job with primary 
prevention, would you also not only reduce crime, but also 
dropouts, teen pregnancy, and other negative outcomes?
    Dr. Greydanus. I think that, along with many other factors, 
because when the child goes through several years of corporal 
punishment and now they are in junior high, elementary school, 
you have an additional issue, and it is called puberty. You 
have hormones increasing. You have this drive to be 
independent. You have this drive somewhat to be rebellious in 
some kids, which society has complained about for thousands of 
years.
    And so when you come into your puberty years angry, upset, 
abused, it is just like a fire, and then you are adding 
gasoline to the fire, and it blows up in a variety of negative 
ways in terms of not just school dropout, but kids, what do you 
do when you drop out of school? These kids get more to drug 
abuse than others. They get more into crime. Many of these kids 
end up in a juvenile home, juvenile courts, jails, and so 
forth.
    So it is like setting a pebble in a pond. It just spreads. 
The idea is to keep the pebble from hitting the pond, and the 
good you would do over this century will be enormous.
    Mr. Scott. Could you talk about the importance of 
extracurricular activities? Are they important in helping 
modify behavior, Ms. Gilbert?
    Ms. Gilbert. Well, when I first started teaching at my 
school, there was very low student morale. We had a football 
team, but it was not--they were losing, and the band didn't 
have uniforms and everything, so our--we are under new 
administration, and so the school band received new uniforms.
    And more people started going out for the football team, 
and the school morale began to change, because the students 
that may have been in the streets, that may have caused 
problems, they had a sense of ownership. They had something 
that they felt important for. They were able to play football. 
The football team started winning.
    The band started winning competitions, and the students 
very proud because they had new uniforms, and they could be 
proud of their uniforms. They could go out and perform in front 
of other schools.
    And I think that having that outlet, you know, keeping our 
kids off of the streets, because typically when a child goes 
home, the parent is not there, and it leaves more room to get 
involved with unnecessary issues, whether it is illegal or, you 
know, illegal or whatever. I think that that has been very 
helpful in my situation just with other extracurricular 
activity for the students, you know, to do.
    Ms. Frieler?
    Ms. Frieler. I would concur with that. I think that the 
whole issue is establishing a positive culture and climate, is 
getting kids to feel like they are part of the school and that 
school is a part of them. And the ownership piece comes in the 
classroom, yes, but it also comes with the extracurricular 
activities and feeling proud about your school and wanting to 
represent your school in a positive manner.
    I think coaches are integral in that. A good coach can 
establish that kind of a feeling and that pride that a kid has 
in their school and how to represent their schools in that way. 
And once you have that pride and you have that culture and 
climate, the chances of having serious discipline infractions 
diminishes. Kids come to school because they feel good about 
being there. They want to represent their school in a positive 
light in the community as well. It has ripple effects 
throughout.
    Dr. Greydanus. And let me just add to that if the child can 
go to school and find a teacher who is kind to them, even if 
they are in a negative environment for whatever reason, if they 
can have a teacher who values them as a human being, if they 
have a coach who says you are special, if they have a school 
counselor or social worker, even if they are in a violent other 
area, that add so much.
    Let me give you an example, if you forgive me, from my 
Vietnam days. I remember being a physician on our warships, and 
I would counsel kids that were 18, 19 years of age in a war 
situation, and they would be very upset. And I found it very 
helpful to them to say to them, ``You know how much this 
government cares for you? It cares for you, because it put you 
with captains who are very well trained, officers who are well 
trained. They put you, yes, in potential harm's way, but they 
surrounded you with people who care about you. They even care 
about you. They take somebody like me, a physician, who was in 
a private world, pluck me out of some training, and put me here 
to be at your beckon call 24 hours away. This government and we 
care so much about you. I am here, the officers are here, and 
we are protecting you. We are helping you.''
    And that sense of protection, which the school, the 
teachers, the coach, the principal, can surround somebody, even 
if the rest of your world is negative, will have positive 
effects, that pond effect, for the rest of their lives. It is a 
beautiful thing to see, and I am sure everyone in this room has 
had a teacher who made them feel comfortable and make them feel 
happy and said, ``You are special, and you can accomplish 
something in the world.'' And that is what sometimes is 
missing. If you hit them, it doesn't work.
    Mr. Scott. And so how does corporal punishment fit into 
that concept?
    Dr. Greydanus. I think because it doesn't. You can't say 
you are a special human being, but I have to make you more 
special. I will hit you. It doesn't work. Some people believe 
that, but it makes the thing worse.
    Once you hit someone, you are physically abusive. Whether 
it is the husband to the wife or vice versa or it is somebody 
in authority over you, you have destroyed that whole 
relationship. And it will take sometimes years, a lifetime to 
recover from that. It is truly abusive. And as we all agree, it 
must be stopped. And if the local districts, states, people 
won't stop it, you have to step in and do it, and you have that 
power to do that.
    Thank you.
    Ms. Pee. May I respond?
    One thing that I see in the South where--in Mississippi, 
where this has happened with my daughter, and I know other 
Southern states, sports are really a big thing, and sports are 
a good thing to keep children busy and focused and something to 
give them pride in.
    But sometimes administrators, schools and teachers will use 
corporal punishment as a way to keep that child playing in that 
game. If they do something wrong and they can have corporal 
punishment or they can have in-school suspension, if they have 
in-school suspension, they are not allowed to play in that 
game. If they receive corporal punishment, then they can go 
play in that game that night.
    And we found in the school that they are giving children 
the choice. They are asking the children, ``Would you prefer 
one or two licks, or do you want to go to ISS for 2 days?'' And 
I don't believe that should be a child's--that should not be a 
child's choice. They don't have the maturity level to make such 
choices.
    Chairwoman McCarthy. I want to thank you all for your 
testimony. I am going to be closing the hearing, but if there 
is anyone on the panel that feels they need to add something or 
something that maybe we haven't covered, we haven't talked 
about, now is your time to speak up.
    Ms. Frieler. I would just like to say I am a parent of two 
children, and my kids know that I have 2,100 kids. And those 
are the kids in my school. And every day I walk into that 
school, I treat them as I would treat my own children. Parents 
send us their very best, and our job isn't to punish for the 
sake of punishment. It is to have discipline being a learning 
experience, and the ultimate goal of that is that they don't do 
the same thing again, they learn from that.
    The critical piece in school is to develop that climate and 
culture so that that doesn't happen. And eventually when that 
works, the kids take care of it themselves. You will hear kids 
in the hall saying, ``Hey, we don't do that here.'' And they 
will help you with it.
    And if you want to turn a school around, you talk to the 
kids and you work with the kids, because eventually the kids, 
they do have that pride in their school. They want to go to a 
place that is safe. They want to go to a place where learning 
takes place, and they will help you do it.
    And, you know, I don't have to go to work today. I get--or 
I don't have to go to work every day. I get to go to work. And 
it is a great place to be. It is a great place to work with 
kids, and I think if we can focus on the positive in schools 
and take out that punitive piece of corporal punishment, we 
will be a lot better with schools.
    Chairwoman McCarthy. Well, I want to thank everybody here. 
Again, for the first time since 1992, this committee has heard 
testimony on this very important issue. Our witnesses have told 
us why paddling in schools is not an effective method of 
discipline and how it has a negative effect on academic 
success. Our witnesses have given us real world examples of the 
problems surrounding paddling in schools, and also the 
solutions and better practices.
    As I stated earlier, I am planning on introducing a bill 
that would address this issue very soon, and I look forward to 
working with my colleagues here on it.
    I want to thank all our witnesses for being here today.
    We have had a great deal of interest in this hearing, and 
several groups have asked to submit testimony for the record. 
Without objection, I would like to introduce testimony from the 
NEA, the PTA, the ACLU, ``The School Psychologist,'' and NAESP, 
Women's Law Center, Dignity in Schools, a group which consists 
of 42 organizations and 31 individuals, including 15 
organizations from states that allow corporal punishment, and 
the Secular Coalition for America. Without objection, I will 
submit this for the record.
    [The information follows:]

        Prepared Statement of the American Academy of Pediatrics

    The American Academy of Pediatrics (AAP), a non-profit professional 
organization of 60,000 primary care pediatricians, pediatric medical 
sub-specialists, and pediatric surgical specialists dedicated to the 
health, safety, and well-being of infants, children, adolescents, and 
young adults, appreciates this opportunity to submit testimony for the 
record for the April 15, 2010 hearing of the House Education and Labor 
Subcommittee on Healthy Families and Communities, entitled ``Corporal 
Punishment in Schools and its Effect on Academic Success.''

    The American Academy of Pediatrics is unequivocally opposed to the 
use of corporal punishment in schools and recommends that it be 
abolished by law in every state. According to the Department of 
Education, hundreds of thousands of children are subjected to corporal 
punishment in public schools each year, and racial minorities and 
children with disabilities are subjected to corporal punishment at 
disproportionally high rates.\1\ Corporal punishment includes, but is 
not limited to, a wide variety of methods of punishment, including 
hitting, spanking, kicking, shaking, shoving, use of various objects 
(wood paddles, belts, sticks), painful body postures (i.e. placing in 
closed spaces), and use of excessive exercise drills. Corporal 
punishment has already been abolished in almost all juvenile correction 
facilities in the United States, and yet it continues to be a common 
practice in elementary, middle and high schools across the country.\2\
---------------------------------------------------------------------------
    \1\ 1976-2004 Elementary and Secondary Schools Survey. Washington, 
DC: Office of Civil Rights, US Department of Education.
    \2\ American Correctional Association, ``Standards for Juvenile 
Correctional Facilities,'' 3-JTS-3A-31, February 2003
---------------------------------------------------------------------------
    Corporal punishment can cause immediate physical pain, as well as 
lasting injuries, including muscle damage, abrasions, lacerations, 
whiplash injury, serious hematomas, broken bones and other injuries 
that may require hospitalization.\3\ In addition, corporal punishment 
can result in increased behavioral problems and mental distress as 
children are humiliated and degraded in front of their peers. Victims 
of corporal punishment have been shown to experience increased anger, 
outbursts of aggression, difficulty with concentration, lowered school 
achievement, and other negative behaviors.\4\ For some children, 
corporal punishment in school may continue a cycle of similar 
punishment at home that contributes to an overall increase in 
aggressiveness in the child.
---------------------------------------------------------------------------
    \3\ Cryan JR. The banning of corporal punishment in child care, 
school and other educative settings in the United States. Child Educ. 
1987; 63:146-153.
    \4\ Dubanoski RA, Inaba M, Gerkewicz BA. Corporal punishment in 
schools (Myths, problems, and alternatives). Child Abuse Negl. 
1983;7:271--278.
---------------------------------------------------------------------------
    Studies have unambiguously shown that corporal punishment is an 
ineffective method of discipline and no evidence exists that such 
punishment leads to better control in the classroom.\5\ Other 
behavioral interventions that utilize positive reinforcement techniques 
and reward appropriate behavior are more effective and have longer 
lasting impacts than corporal punishment.\6\ Teachers and school 
administrators should be supported in receiving as much training as 
possible to augment their efforts to maintain effective classroom 
control without the use of corporal punishment.
---------------------------------------------------------------------------
    \5\ Moelis CS. Banning corporal punishment (A crucial step toward 
preventing child abuse). Child Legal Rights J. 1988;9:2--5.
    \6\ Gainer PS, Webster SW, Champion HR. A youth violence prevention 
program: Description and preliminary evaluation. Arch Surg 1993; 
128:303-8.
---------------------------------------------------------------------------
    The attached AAP policy statement, ``Corporal Punishment in 
Schools,'' provides further detail and support for our recommendation 
of abolishing corporal punishment in all schools. The AAP commends the 
Subcommittee for holding this hearing and drawing more attention to the 
emotionally and physically damaging practice of corporal punishment.
    The American Academy of Pediatrics appreciates this opportunity to 
submit testimony for the record. If the AAP may be of further 
assistance, please contact Cindy Pellegrini or Dan Gage in our 
Washington, D.C. office at 202/347-8600.
                                 ______
                                 

                     AMERICAN ACADEMY OF PEDIATRICS

                       Committee on School Health

                     Corporal Punishment in Schools

    abstract. The American Academy of Pediatrics recommends that 
corporal punishment in schools be abolished in all states by law and 
that alternative forms of student behavior management be used.
    It is estimated that corporal punishment is administered between 1 
and 2 million times a year in schools in the United States.\1\ 
Increasingly, states are abolishing corporal punishment as a means of 
discipline, but statutes in some states still allow school officials to 
use this form of discipline.\2-4\
    The American Academy of Pediatrics believes that corporal 
punishment may affect adversely a student's self-image and school 
achievement and that it may contribute to disruptive and violent 
student behavior.\1,5-7\ Alternative methods of behavioral management 
have proved more effective than corporal punishment and are 
specifically described in the reference articles.\5-7\ Physical force 
or constraint by a school official may be required in a limited number 
of carefully selected circumstances to protect students and staff from 
physical injury, to disarm a student, or to prevent property damage.
    The American Academy of Pediatrics urges parents, educators, school 
administrators, school board members, legislators, and others to seek 
the legal prohibition by all states of corporal punishment in schools 
and to encourage the use of alternative methods of managing student 
behavior.
Committee on School Health, 1999-2000
                          Howard L. Taras, MD, Chairperson,
David A. Cimino, MD; Jane W. McGrath, MD; Robert D. Murray, 
                                                        MD.

    The recommendations in this statement do not indicate an exclusive 
course of treatment or serve as a standard of medical care. Variations, 
taking into account individual circumstances, may be appropriate. 
PEDIATRICS (ISSN 0031 4005). Copyright (c) 2000 by the American Academy 
of Pediatrics.

                  Wayne A. Yankus, MD; Thomas L. Young, MD.
Liaisons
Evan Pattishall III, MD American School Health Association Missy 
        Fleming, PhD American Medical Association
Maureen Glendon, RNCS, MSN, CRNP National Association of Pediatric 
        Nurse Associates and Practitioners
Lois Harrison-Jones, EdD American Association of School Administrators
Linda Wolfe, RN, BSN, MEd, CSN National Association of School Nurses
Jerald L. Newberry, MEd National Education Association, Health 
        Information Network
Mary Vernon, MD, MPH Centers for Disease Control and Prevention
Consultant
Paula Duncan, MD
Staff
Su Li, MPA
                                endnotes
    \1\ 1986--1987 Elementary and Secondary Schools Civil Rights 
Survey, National Summary of Projected Data. Washington, DC: Office of 
Civil Rights, US Department of Education; 1987
    \2\ The National Center for the Study of Corporal Punishment and 
Alternatives. States Which Have Abolished Corporal Punishment as a 
Means of Discipline in the Schools. Philadelphia, PA: Temple 
University; 1994
    \3\ Dolins JC, Christoffel KK. Reducing violent injuries: 
priorities for pediatrician advocacy. Pediatrics. 1994;94:638--651
    \4\ 1990 Elementary Secondary School Civil Rights Survey, National 
State Summary of Projected Data. Washington, DC: Office of Civil 
Rights, US Department of Education; 1992
    \5\ Poole SR, Ushkow MC, Nader PR, et al. The role of the 
pediatrician in abolishing corporal punishment in schools. Pediatrics. 
1991;88:162--176
    \6\ Hyman IA, Wise JH, eds. Corporal Punishment in American 
Education: Readings in History, Practice and Alternatives. 
Philadelphia, PA: Temple University Press; 1979
    \7\ Hyman HA, McDowell E, Raines B. In: Wise JH, ed. Proceedings: 
Conference on Corporal Punishment in the Schools: A National Debate. 
Washington, DC: National Institute of Education; 1977
                                 ______
                                 

         Prepared Statement of the Dignity in Schools Campaign

    Dear Chairwoman McCarthy, Ranking Member Platts, and Subcommittee 
Members: We, the undersigned parents, students, educators, researchers, 
and civil rights and educational organizations, support your effort to 
address the important issues to be raised in the upcoming hearing, 
``Corporal Punishment in Schools and its Effect on Academic Success.'' 
We urge the Subcommittee on Healthy Families and Communities, in 
reauthorizing the Elementary and Secondary Education Act (ESEA), to 
devote serious attention to the impact that corporal punishment and 
school discipline have on the health and academic success of our 
nation's students and schools.
    Maintaining a safe and healthy instructional climate is a critical 
responsibility of schools in the 21st century. Student behavior and 
academic achievement are inseparable, and safer schools are higher 
achieving schools. Unfortunately, many schools rely only on physical 
punishment and exclusionary practices--suspension, expulsion, and 
arrest--to maintain discipline and safety. Rather than contribute to a 
better learning environment, these practices can make matters worse for 
the health and success of our schools and the students in them.
    Currently, twenty states allow corporal punishment in schools 
(``corporal punishment states''). A comparison of the academic results 
of these states against the rest of the country suggests that corporal 
punishment negatively impacts academic success. None of the corporal 
punishment states scored in the top twenty percent in 8th grade 
performance on the National Assessment of Educational Progress (NAEP). 
Yet sixty percent of the corporal punishment states scored below 
average or worse in 8th grade performance on the NAEP. Two-thirds of 
states that do not allow corporal punishment in schools had graduation 
rates above the national average in 2004, while 57% of corporal 
punishment states had graduation rates below the national average that 
year.
    The use of corporal punishment in schools appears to damage the 
bonds between students and educators, further harming students' 
academic potential. The Society for Adolescent Medicine has found that 
victims of corporal punishment often develop deteriorating peer 
relationships, difficulty with concentration, lowered school 
achievement, antisocial behavior, intense dislike of authority, a 
tendency for school avoidance and school drop-out, and other evidence 
of negative high-risk adolescent behavior. In many states, children 
receive greater protections against the use of corporal punishment in 
juvenile detention facilities than they do in their schools. The use of 
corporal punishment in schools is interfering with students' right to 
be treated with dignity and, as a result, is interfering with their 
right to a quality education.
    In reviewing the effects of corporal punishment on academic 
success, we urge the Subcommittee to explore the ties between academic 
achievement and exclusionary discipline as well. While none question 
the need to keep schools safe, educators, researchers, and communities 
are questioning the efficacy of exclusionary practices such as 
suspensions, expulsions, and school-based arrests. Each year, over 
three million students are suspended and over 100,000 are expelled 
nationally. As Secretary Arne Duncan warned in his recent remarks in 
Selma, Alabama, the overuse of exclusionary practices on students of 
color and students with disabilities is particularly disconcerting. 
Media reports abound with stories of even our youngest students being 
expelled or arrested for what was once considered youthful misbehavior.
    According to the American Psychological Association, the use of 
exclusionary practices does not improve behavior, but can instead 
increase the likelihood that students will fall behind academically, 
have future behavior problems, drop out of school, and become involved 
in the juvenile or criminal justice system. Exclusionary discipline 
affects not only the student being disciplined, but the health and 
success of the school as a whole: schools with high suspension rates 
score lower on state accountability tests, even when adjusting for 
demographic differences.
    We urge the committee to take note that there are proven, cost-
effective alternatives to corporal punishment and exclusion. Many US 
schools are implementing Positive Behavioral Interventions and Supports 
(PBIS), an approach that--as described in the Positive Behavior for 
Safe and Effective Schools Act (H.R. 2597)--is linked to greater 
academic achievement, significantly fewer disciplinary referrals, 
increased instruction time, and staff perception of a safer learning 
environment. Similar improvements to school climate result from 
complementary approaches like restorative practices and school offense 
protocols.
    We applaud the Subcommittee's efforts to better understand the 
impact of corporal punishment on academic success. We urge the 
Subcommittee to undertake a similar review of the ties between academic 
achievement and the use of suspension, expulsion, and school-based 
arrests (we have attached the Dignity in Schools Campaign's 
recommendations to the House Committee on Education and Labor to that 
effect). School discipline should be used to maintain the health and 
productivity of the learning environment for students and teachers 
alike. When disciplinary practices interfere with academic success, 
they interfere with the bold goals this Subcommittee has for the 
futures of our children. In reauthorizing the ESEA, we urge you to 
address the harms these practices can cause to the health and academic 
success of our students and schools.
            Sincerely,
                            The Dignity in Schools Campaign
                   and the following organizations and individuals:

Activists with a Purpose Plus (Grenada, MS)
Alpha Phi Fraternity, Inc., Eta Lambda Chapter (Atlanta, GA)
Alpha Phi Fraternity, Inc., Rho Kappa Lambda Chapter (Gwinnett Co., GA)
Alpha Phi Fraternity, Inc., Rho Sigma Lambda Chapter (Henry Co., GA)
American Civil Liberties Union (ACLU)
Bazelon Center for Mental Health Law Center for Effective Discipline
Charles Hamilton Houston Institute for Race & Justice at Harvard Law 
        School
Children & Family Justice Center, Bluhm Legal Clinic, Northwestern 
        University School of Law
Coalition for Positive Behavioral Interventions & Supports
Concerned Citizens for a Better Greenville (Greenville, MS)
Connecticut Legal Services, Inc.
Disability Law Center of Massachusetts
Education Law Center (Newark, NJ)
Educators for Social Responsibility
Gwinnett Parent Coalition to Dismantle the School to Prison Pipeline 
        (Gwinnett Co., GA)
International Institute for Restorative Practices
Justice4Children
Law Office of Piper A. Paul, LLC (Westport, CT)
Legal Services for Children (San Francisco, CA)
Louisiana Developmental Disabilities Council
Malcolm X Center for Self Determination (Greenville, SC)
Mental Health Advocacy Services, Inc. (Los Angeles, CA)
Mississippi Coalition for Citizens with Disabilities
Mississippi Delta Catalyst Roundtable
Multiethnic Advocates for Cultural Competence
NAACP Legal Defense & Educational Fund, Inc.
National Disability Rights Network
National Economic and Social Rights Initiative (NESRI)
National Women's Law Center
Parents Against Spanking Association
Parents United Together of Mississippi
Physicians for Social Responsibility (Sacramento, Ca)
Public Counsel (Los Angeles, CA)
Public Science Project (New York, NY)
Restorative Schools Vision Project (Sacramento, CA)
RKH Law Office (Los Angeles, CA)
South Carolina Appleseed Justice Center
South Carolina Autism Society
Southern Echo, Inc. (Jackson, MS)
Southern Poverty Law Center
Therapists for Social Responsibility (Sacramento, CA)

    The following individuals are listed with their affiliations for 
identification purposes only:

Theresa Baradine, Parent
Deborah Barclay
William Bronston, MD
Jeanie Calenoff, Parent of a Special Needs Child
Barbara Corkrey, Attorney, Legal Aid Foundation of Los Angeles
Edith M. Cornet
Lisa Cowen
Kimberly Coffman, LMSW, Social Worker and Mother of an Autistic Child
Sheree Janelle Davenport, Mother of an Autistic Child
Anna Donnelly
Michelle Fine, Distinguished Professor, the Graduate Center of the City 
        University of New York
John Gardner, Educational Consultant
Maria Hantzopoulos, Assistant Professor, Vassar College
Judge Brian Huff, Juvenile Court, Birmingham, Alabama
Rubina Johnson, Advocate
Veronika Kot, Parent
Monica Llorente, Advocate
Patrice Neal, PhD, FPG Child Development Institute, University of North 
        Carolina--Chapel Hill
Gaylon James Nettles, Esq., Attorney
David Nylund, LCSW, PhD, Associate Professor of Social Work, Sacramento 
        State University
John M. Palladino, PhD, Associate Professor, Deparment of Special 
        Education, Eastern Michigan University
Nancy Polin, Concerned Parent
Heather Price, Educational Researcher, University of Notre Dame
Karolyn Renard, Attorney at Law, Advocate for Children with 
        Disabilities
Augustina Reyes, Professor, College of Education, University of Houston
Marlene Sallo, Esq., Advocate
Therese Sandomierski, M.A.
Sally Sommer, Retired Teacher, Oakland Unified School District
Jeffrey Sprague, Ph.D., Co-Director, Univ. Oregon Inst. on Violence and 
        Destructive Behavior
Julie K. Waterstone, Southwestern Law School
George E. Worley, Parent and Children's Advocate
Contact:
    Matthew Cregor Safe Schools Strategist NAACP Legal Defense and 
Educational Fund, Inc. For the Dignity in Schools Campaign 646-515-5284 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c010f1e090b031e2c020d0d0f1c00080a42031e0b">[email&#160;protected]</a>
                                 ______
                                 

       Prepared Statement of Sean Faircloth, Executive Director,
                     Secular Coalition for America

    Thank you Chairwoman McCarthy and the other members of the 
Committee for this opportunity to submit written testimony as you 
consider whether or not to ban corporal punishment in private 
educational institutions.
    The Secular Coalition for America is the leading organization 
promoting the viewpoints of nontheistic Americans and their federal 
policy concerns. Headquartered in Washington D.C., and founded in 2005, 
our mission is to increase the visibility of and respect for nontheists 
in the United States, and to protect and strengthen the secular 
character of our government as the best guarantee of freedom for all 
Americans. The Secular Coalition for America submits that if Congress 
decides that corporal punishment must be restricted, that principle 
must apply to religious schools exactly as it does to secular schools.
States have a duty to protect children from violence in schools equally
    The Supreme Court has said that because of the ``high 
responsibility for education of its citizens, [a state] may impose 
reasonable regulations for the control and duration of basic 
education.'' \1\ The state's interest in an informed and self-
sufficient citizenry capable of participating in a democratic society 
is generally cited to support the regulation of private schools.\2\ In 
2009, 10.5% of all elementary and secondary students in America were 
enrolled in a private school.\3\
---------------------------------------------------------------------------
    \1\ Wisconsin v. Yoder, 406 U.S. 205, 213 (1972). See also Board of 
Ed. of Cent. Sch. Dist. No.1 v. Allen, 392 U.S. 236, 246-247 (1968).
    \2\ Yoder at 221; Kentucky State Board v. Rudasill, 589 S.W.2d 877, 
883 (1979).
    \3\ Snyder, Thomas D., Hoffman, Charlene M. Digest of Education 
Statistics 2008. NCES 2010-013, Washington, DC: United States 
Department of Education, Office of Educational Research and 
Improvement.
---------------------------------------------------------------------------
    The state's interest in protecting children from the dangers 
associated with corporal punishment could not be met if some schools 
were exempted from the law. This is particularly true considering many 
influential Christian leaders such as Focus on the Family's James 
Dobson advocate that corporal punishment be used in both schools and 
homes.\4\ Exempting religious private schools from a ban on corporal 
punishment would mean that the government is authorizing the use of 
physical violence as a form of punishment for children for a specific 
set of children. Children in religious schools are no less human--and 
no less equal citizens--than children anywhere else.
---------------------------------------------------------------------------
    \4\ Dobson, James C. (1996). The New Dare to Discipline. Tyndale 
House Publishing.
---------------------------------------------------------------------------
    Exempting religious private schools from a ban on corporal 
punishment violates the principle of equal protection under the law. 
Excluding religious schools from any school regulations intended to 
guarantee a high-quality education or to protect children from harm 
impinges upon most basic right of children in these schools--the right 
to equality. If the state's goal is to protect children from harm 
resulting from corporal punishment, then there is no less restrictive 
way to protect children other than banning corporal punishment in all 
private and public schools. Children in private schools deserve the 
same protections as children in public schools.
Not all states apply uniform corporal punishment bans
    Both New Jersey\5\ and Iowa\6\ have specifically outlawed corporal 
punishment in both private and public schools. Alaska, California, 
Illinois, Michigan, Nevada, New York, Utah and Washington allow 
corporal punishment in private schools even though they are banned in 
public schools. Allowing corporal punishment in private schools, 
despite state corporal punishment bans in public schools, unfairly 
privileges religious institutions over secular institutions and 
unconstitutionally entangles church and state--while violating the 
basic human rights of a distinct group of children.
---------------------------------------------------------------------------
    \5\ N.J. Rev. Stat. Sec. 18A:6-1.
    \6\ IOWA CODE Sec.  280.21
---------------------------------------------------------------------------
Religious beliefs are no excuse for using corporal punishment
    The Free Exercise Clause of the First Amendment provides great 
protection for religious beliefs and speech. The courts, however, have 
always drawn a distinction between religious beliefs and religiously-
motivated conduct. While the freedom to believe is absolute, the Free 
Exercise Clause does not mandate that religiously-motivated conduct 
must be free from law. Moreover, the ``conduct'' involved here is 
hurting another human being, a child no less. What a person chooses for 
their own body is far different from a policy that permits harm to 
another essentially defenseless human being. As the Supreme Court has 
said, ``neither the rights of religion nor the rights of parenthood are 
beyond limitation'' and the Free Exercise clause cannot be used to 
justify placing children in harm's way.\7\ In the case of corporal 
punishment in schools, the state has a compelling interest in ending 
corporal punishment in schools and protecting children from these 
practices. Numerous studies have shown that corporal punishment may 
trigger criminal, anti-social, violent, aggressive behavior later in 
life. If Congress gives credence to such studies, then they are no less 
credible when the results of those studies apply to religious schools.
---------------------------------------------------------------------------
    \7\ Prince v. Massachusetts, U.S. Supreme Court, 1943
---------------------------------------------------------------------------
    Moreover, international regulatory bodies agree that religious 
values are no excuse for performing corporal punishment. The United 
Nations Committee on the Rights of the Child has made clear that 
religious values should not condone the use of corporal punishment.
    ``Some raise faith-based justifications for corporal punishment, 
suggesting that certain interpretations of religious texts not only 
justify its use, but provide a duty to use it. Freedom of religious 
belief is upheld for everyone in the International Covenant on Civil 
and Political Rights (Art. 18), but practice of a religion or belief 
must be consistent with respect for others' human dignity and physical 
integrity. Freedom to practice one's religion or belief may be 
legitimately limited in order to protect the fundamental rights and 
freedoms of others.'' \8\
---------------------------------------------------------------------------
    \8\ UN Committee on the Rights of the Child (CRC), UN Committee on 
the Rights of the Child: General Comment No. 8, Para 29.
---------------------------------------------------------------------------
Corporal punishment ban must also apply to private religious schools
    The Secular Coalition for America opposes the use of government 
funds for religious purposes, including funding for religious schools. 
We agree with the founders of the United States that no individual 
taxpayer should be required to pay for the propagation of another's 
religion. If private religious schools are to be funded with taxpayer 
dollars, then students attending religious schools should be protected 
to the same extent as their public school counterparts.
    We are faced with a fundamentally moral issue. If corporal 
punishment of children is wrong, it is just as wrong in a religious 
school. We encourage people of all faiths to join their secular 
neighbors in asking that we as a country do what is right for children 
uniformly and without exception.
                                 ______
                                 
    Chairwoman McCarthy. As previously so ordered, our members 
will have 14 days to submit additional materials for the 
hearing record. Any member who wishes to submit follow-up 
questions in writing to our witnesses should coordinate with 
the majority staff within the requested time.
    Without objection, this hearing is adjourned. Thank you.
    [Questions submitted for the record and their responses 
follow:]

                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, April 27, 2010.

        [The following correspondence was sent to each witness]

    Dear [Witness]:
    Thank you for testifying at the Subcommittee on Healthy Families 
and Communities hearing on, ``Corporal Punishment in Schools and its 
Effect on Academic Success,'' on April 15, 2010.
    Committee Members have additional questions for which they would 
like written responses from you for the hearing record.
    Representative Robert C. ``Bobby'' Scott (D-VA) has asked that you 
respond in writing to the following questions:
    1. Corporal punishment is considered a violation of human rights 
law under several international treaties including two which the US. 
has ratified. Therefore, are we in violation of human rights laws by 
continuing to permit corporal punishment in our education system?
    2. Does professional development for alternative behavior 
modification techniques for teachers and principals reduce corporal 
punishment in schools?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on April 29, 
2010. If you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

          Responses to Mr. Scott's Questions From Ms. Frieler

    1. Corporal punishment is considered a violation of human rights 
law under several international treaties including two which the US. 
has ratified. Therefore, are we in violation of human rights laws by 
continuing to permit corporal punishment in our education system?

    In my opinion, yes. When dealing with young, impressionable 
students, corporal punishment does not change behavior. It is not an 
intervention that serves students, it is a consequence which may 
satisfy the adult's need for expediency but will not change a behavior. 
Students who experience corporal punishment also experience fear, lack 
of trust and possibly, injury. Obviously, those feelings are not 
conducive to educating students. If, adults are protected from corporal 
punishment from others, our children should be as well.

    2. Does professional development for alternative behavior 
modification techniques for teachers and principals reduce corporal 
punishment in schools?

    Yes. What is most effective is a counseling type model, one where 
the administration and faculty work together to create a system of 
consequences designed to help students learn proper comportment. This 
system must then be communicated with students and families and 
monitored continually. When there is a discipline situation, we must 
follow state laws and district policies. Although there may be actual 
programs that provide professional development for alternative behavior 
modification techniques, discipline is also very personal and each 
student is an individual and must be treated as so. This does not mean 
that each consequence should be different however. Continuity between 
those in the school who do the discipline is imperative to the student 
perception that things are handled fairly and that no one student 
receives special treatment. Administrators work with teachers to find a 
resolution to a discipline problem that addresses the severity of the 
situation as well as one that maintains the dignity of everyone 
involved. It is imperative that reactions and decisions are not made 
based on anger. Many times student misbehavior happens as a result of 
some external situation that an educator may not even be aware of. A 
counseling model where the family is involved and things are clearly 
explained is most effective. Developing a relationship with students 
and their families is critical when dealing with discipline situations. 
Once you understand the root cause for the behavior, you can provide a 
discipline consequence that is fair and will achieve the goal of 
teaching the student alternate ways of handling things so the behavior 
does not continue.
                                 ______
                                 

          Responses to Mr. Scott's Questions From Ms. Gilbert

    Corporal punishment is considered a violation of human rights law 
under several international treaties including two which the U.S. has 
ratified. Therefore, are we in violation of human rights laws by 
continuing to permit corporal punishment in our education system?

    I do feel that corporal punishment is a violation of human rights 
in public schools. However, there has to be parameters set, to avoid 
the risk of ``all'' discipline in public school being considered a 
violation of human rights. As stated in my testimony, permitting 
corporal punishment in public schools, is nothing more than ``sweeping 
dirt under the rug, the problem(s) still exist, it's just being covered 
up.''

    Does professional development for alternative behavior modification 
techniques for teachers and principals reduce corporal punishment in 
schools?

    Yes, professional development for alternative behavior modification 
techniques for teachers and principals does reduce corporal punishment 
in schools. Based on my personal experience as a high school teacher, I 
would not have been successful in handling classroom discipline had I 
not taken advantage of programs such as ``Managing Anti-Social 
Behaviors'' (professional development provided my the American 
Federation of Teachers through Education Research and Dissemination). 
This program opened my eyes to new and innovative ways of handling 
class room discipline without the use of harsh punishment by the 
administration.
                                 ______
                                 

            Responses to Mr. Scott's Questions From Ms. Pee

    Thank you again for the opportunity to testify before the Healthy 
Families and Communities Subcommittee on the critical issue of banning 
corporal punishment in our public schools. Below are my responses to 
Mr. Scott's follow-up questions to me.

    1. Corporal punishment is considered a violation of human rights 
law under several international treaties including two which the US has 
ratified. Therefore, are we in violation of human rights laws by 
continuing to permit corporal punishment in our education system?

    While I am not a lawyer or well-versed in international human 
rights law, I do know that the use of corporal punishment in schools 
interferes with students' right to dignity and, as a result, is 
interfering with their right to a quality education. I have learned 
that educational experts have concluded that the use of corporal 
punishment interferes with learning, encourages children to drop out of 
school, and generally undermines the purposes of education as 
understood in international human rights law.
    The story of my daughter being corporally punished was profiled in 
the ACLU/Human Rights Watch report, A Violent Education. I have 
reviewed that report, and believe and agree with their summary on pages 
102-113, which answers in more detail Mr. Scott's question. The section 
on international obligations can be found here: http://www.hrw.org/en/
node/62078/section/12. In this section, the ACLU and HRW detail how the 
US violates multiple bodies of human rights law by permitting corporal 
punishment in US public schools.
    From this material, I have learned that international treaties, 
including the Convention on the Rights of the Child, the Convention 
against Torture, and the International Covenant on Civil and Political 
Rights, to which the US is party, prohibit the use of cruel, inhuman, 
or degrading treatment or punishment. Experts in these areas 
consistently have concluded that corporal punishment by school 
officials and teachers violates governmental obligations to protect 
children from physical violence and cruel treatment. Given the 
international consensus against corporal punishment, understand that 
over 100 countries prohibit the practice in schools. The same should be 
true of the United States.

    2. Does professional development for alternative behavior 
modification techniques for teachers and principals reduce corporal 
punishment in schools?

    I believe that many teachers in districts that use corporal 
punishment want the best for their students and may believe that 
corporal punishment can deter misbehavior and help educate students. 
Likewise, parents and children want orderly and safe school 
environments in which students can learn. But violence against students 
in the form of corporal punishment is not the answer. The practice 
injures students, it creates a hostile school climate, it impedes a 
positive environment students need in order to learn, it has been 
disproportionately applied against African American and disabled 
students, and it teaches violence as an appropriate response to 
problems.
    There are other models and practices that can promote safe, 
effective discipline systems that can replace corporal punishment in 
schools. Like I said in my testimony, there are even simple solutions 
that can change the behavior of children in school without causing 
injuries. For example, I remember when my daughter was in elementary 
school she got in trouble for talking in class. I told the teacher, if 
you keep her in from recess and give her some extra work--that will 
stop the behavior you don't like right away. And it did, because social 
time was important to my daughter.
    Better approaches to school discipline are available. For instance, 
I have recently learned about the practice of positive behavioral 
supports (PBS)--an evidence-based, comprehensive approach to school 
discipline rooted in responding to the underlying reasons for the 
student's misbehavior.
    Nationwide, teachers and administrators increasingly have been 
using positive discipline methods that foster nurturing school cultures 
and allow students to thrive. With appropriate funding, training, and 
support, teachers and administrators can implement discipline systems 
that create educational environments in which every student can learn. 
I understand the Mr. Hare has a bill--Positive Behavior for Safe and 
Effective Schools Act (HR 2597)--that would promote these practices in 
schools. Based on my personal experiences, I strongly support 
legislation banning corporal punishment in schools, coupled with 
legislation implementing PBS programs, thereby providing teachers and 
schools positive alternatives to the ineffective and cruel discipline 
of corporal punishment.
    Again, my many thanks to you, Ms. McCarthy, and the Committee for 
your focus on this important issue. While it is too late to protect my 
child from the injuries she suffered from this destructive practice, I 
hope that you can quickly introduce and pass legislation banning 
corporal punishment in schools. Please feel free to contact me if there 
is anything further I can do to be helpful.
                                 ______
                                 
    [Additional submissions of Ms. Pee follow:]

      Prepared Statement of the American Civil Liberties Union and
                           Human Rights Watch

    Dear Chairperson McCarthy, Ranking Member Platts, and Members of 
the Subcommittee: On behalf of the American Civil Liberties Union 
(ACLU), its over half a million members, countless additional 
supporters and activists, and fifty-three affiliates nationwide and 
Human Rights Watch, one of the world's leading independent 
organizations dedicated to defending and protecting human rights, we 
applaud the House Education and Labor Subcommittee on Healthy Families 
and Communities for conducting a hearing concerning the ongoing 
corporal punishment of American public school children and its impact 
on their educational success.
    The ACLU is a nationwide, non-partisan organization working daily 
in courts, Congress, and communities to defend and preserve the civil 
rights and liberties that the Constitution and laws of the United 
States guarantee everyone in this country. For thirty years, Human 
Rights Watch has investigated human rights violations wherever they 
occur, including in the United States, exposed the perpetrators, and 
advocated for change. We are pleased to submit this written statement 
for the record on the issue of corporal punishment in public schools--a 
vitally important issue affecting children's access to high-quality 
education and a safe and supportive learning atmosphere.
I. The Ongoing Use of Corporal Punishment in Public Schools
    Each year, hundreds of thousands of students are subjected to 
corporal punishment in public schools.\1\ Despite the many problems 
associated with the hitting or paddling of students, corporal 
punishment is a legal form of school discipline in 20 states.\2\ Of 
these, thirteen states have reported that corporal punishment was 
inflicted on over one thousand students\3\--and eight states reported 
its use against at least ten thousand students\4\--during the 2006-2007 
school year. While significant, these numbers do not tell the whole 
story. These statistics only reflect data which has been reported to 
the Department of Education and they only include the number of 
students who are subjected to corporal punishment during the school 
year, not the total number of times that an individual student has been 
hit over his or her educational career.\5\
    Aside from the infliction of pain and the physical injuries which 
often result from the use physical punishments, these violent 
disciplinary methods also impact students' academic achievement and 
long-term well-being.\6\ Despite significant evidence that corporal 
punishment is detrimental to a productive learning environment, there 
is currently no federal prohibition on the use of physical discipline 
against children in public school. In fact, children in some states 
receive greater protections against corporal punishment in detention 
facilities than they do in their public schools.\7\ For this reason and 
others, the ACLU and HRW are encouraged that this subcommittee is 
seeking to address the problems stemming from corporal punishment in 
schools.
II. The Disproportionate Use of Corporal Punishment
    Students of color and students with disabilities are 
disproportionately subjected to corporal punishment, hampering their 
access to a supportive learning environment. According to the 
Department of Education, while African Americans make up 17.1 percent 
of public school students nationwide, they accounted for 35.6 percent 
of those who were paddled during the 2006-2007 school year.\8\ In A 
Violent Education and Impairing Education, two joint reports published 
by the ACLU and HRW detailing the effects of corporal punishment in 
public schools, interviewees noted the disproportionate application of 
corporal punishment:
    <bullet> One Mississippi high school student described the 
administration of corporal punishment in her school this way: ``every 
time you walk down the hall you see a black kid getting whipped. I 
would say out of the whole school there's only about three white kids 
who have gotten paddled.'' \9\
    <bullet> A Mississippi teacher also noted the racial disparity in 
the administration of corporal punishment: ``I've heard this said at my 
school and at other schools: `This child should get less whips, it'll 
leave marks.' Students that are dark-skinned, it takes more to let 
their skin be bruised. Even with all black students, there is an 
imbalance: darker-skinned students get worse punishment. This really 
affected me, being a dark-skinned person myself.'' \10\
    Evidence shows that students with disabilities are also 
disproportionally subjected to corporal punishment. The Department of 
Education has reported that although students with disabilities 
constitute 13.7 percent of all public school students, they make up 
18.8 percent of those who are subjected to corporal punishment.\11\ In 
many of these cases, students were punished for exhibiting behaviors 
related to their disabilities, such as autism or Tourette's 
syndrome.\12\ The effects of corporal punishment on students with 
disabilities can dramatically impact their behavior and hamper their 
academic performance. In Impairing Education, parents and grandparents 
of students with disabilities noted the changes in behavior and 
barriers to educational achievement stemming from the use of corporal 
punishment:
    <bullet> A grandmother of a student who has Asperger's syndrome 
withdrew him from his Oklahoma school in part because of the hostile 
environment stemming from frequent use of corporal punishment: ``It 
made him much more introverted. He very much didn't want to go to 
school * * * No one's supposed to go to school to be tortured, school 
is supposed to be fun.'' \13\
    <bullet> A mother of a student with autism reported that her son's 
behavior changed after he was struck in his Florida school: ``He's an 
avoider by nature, before he was never aggressive. Now, he struggles 
with anger; right after the incidents he'd have anger explosions.'' 
\14\
    Hitting any student should be an unacceptable practice, but the 
disproportionate application of corporal punishment further undermines 
the educational environment for minority groups and students with 
disabilities.\15\ A federal prohibition on corporal punishment in 
public schools is necessary to protect students from the discriminatory 
impact and the academic harms which it brings.
III. The Impact of Corporal Punishment On Students' Academic 
        Performance
    Harsh physical punishments do not improve students' in-school 
behavior or academic performance. In fact, one recent study found that 
in states where corporal punishment is frequently used, schools have 
performed worse academically than those in states that prohibit 
corporal punishment.\16\ While most states demonstrated improvements in 
their American College Testing (ACT) scores from 1994 to 2008, ``as a 
group, states that paddled the most improved their scores the least.'' 
\17\ At the same time ``the ten states with the longest histories of 
forbidding corporal punishment improved the most'' with improvement 
rates three times higher than those states which reported frequent use 
of corporal punishment.\18\
    Many children who have been subjected to hitting, paddling or other 
harsh disciplinary practices have reported subsequent problems with 
depression, fear and anger.\19\ These students frequently withdraw from 
school activities and disengage academically.\20\ The Society for 
Adolescent Medicine has found that victims of corporal punishment often 
develop ``deteriorating peer relationships, difficulty with 
concentration, lowered school achievement, antisocial behavior, intense 
dislike of authority, somatic complaints, a tendency for school 
avoidance and school drop-out, and other evidence of negative high-risk 
adolescent behavior.'' \21\ One Mississippi student interviewed for A 
Violent Education described the effects of corporal punishment on his 
attitude towards school:
    <bullet> ``[Y]ou could get a paddling for almost anything. I hated 
it. It was used as a way to degrade, embarrass students * * * I said 
I'd never take another paddling, it's humiliating, it's degrading. Some 
teachers like to paddle students. Paddling causes you to lose respect 
for a person, stop listening to them.'' \22\
    Corporal punishment places parents and teachers in positions where 
they may have to choose between educational advancement and students' 
physical well-being. For instance, some parents who learn that their 
children are being struck at public school find themselves without 
recourse, unable to effectively opt-out from the practice, and unable 
to obtain legal or other redress when their children have been paddled 
against their wishes. Ultimately some parents find that the only way 
they can protect their children from physical harm is to withdraw them 
from school altogether.\23\ Similarly, teachers who work in schools 
where corporal punishment is administered are often reluctant to send 
disruptive students out of the classroom because they are afraid the 
students will be beaten.\24\
    Moreover, a public school's use of corporal punishment affects 
every student in that school, including those who are not personally 
subjected to hitting or paddling. The prevalent use of physical 
violence against students creates an overall threatening school 
atmosphere that impacts students' ability to perform academically.\25\ 
Often, children who experience or witness physical violence will 
themselves develop disruptive and violent behaviors, further disturbing 
their classmates' learning as well as their own.\26\
    Corporal punishment is a destructive form of discipline that is 
ineffective in producing educational environments in which students can 
thrive. Rather than relying on harsh and threatening disciplinary 
tactics, schools and teachers should be encouraged to develop positive 
behavior supports (PBS), which have proven effective in reducing the 
need for harsh discipline while supporting a safe and productive 
learning environment.\27\ The Positive Behavior for Safe and Effective 
Schools Act (H.R. 2597) would help states and Local Education Agencies 
(LEAs) create positive learning environments by allowing them to use 
Title I funds to develop PBS practices. This bill would also require 
the Department of Education to provide assistance and support so that 
states may fully realize the potential of supportive and flexible 
behavior discipline practices. By abandoning ineffective and brutal 
disciplinary practices, and by encouraging the adoption of PBS methods, 
our nation can provide opportunities for all students to achieve 
academic success in a supportive and safe school environment.
IV. Recommendations
    In order to prevent the continued use of violence against children 
in our schools, we recommend that Congress:
    <bullet> Introduce and pass federal legislation prohibiting the use 
of corporal punishment in public schools, conditioned on the receipt of 
federal funding.
    <bullet> Define corporal punishment as any punishment by which 
physical force is used with the intention of causing some degree of 
pain or discomfort, however light.
    <bullet> Promote the use of positive behavioral supports by passing 
H.R. 2597, and provide teachers and school administrators with the 
tools and resources necessary to develop safe and effective methods for 
encouraging positive student behavior
    <bullet> Provide students and their families with a private right 
of action to enforce their rights to be free from physical punishment 
and to a safe and supportive learning environment in administrative or 
judicial actions.
    <bullet> Require all schools and LEAs to report all instances where 
corporal punishment is used, not just the number of students who are 
punished in a given year. This data should be collected and 
disaggregated by student subgroups to assess disproportionate 
application.
    <bullet> Provide funding to those states which implement PBS 
practices so that teachers may be effectively trained to create safe 
and supportive school discipline plans.
V. Conclusion
    The ACLU and HRW would like to thank Chairperson McCarthy and the 
Subcommittee on Healthy Families and Communities for their efforts to 
address the problems arising from corporal punishment in public 
schools. The use of violence against students is never an acceptable 
means of punishment--it harms students physically, psychologically and 
academically. The use of corporal punishment in schools is interfering 
with students' right to be treated with dignity and, as a result, is 
interfering with their right to a quality education. By prohibiting the 
use of corporal punishment and helping states to develop safe and 
effective behavioral practices, this Congress could help to ensure that 
our nation's children are able to achieve their full educational 
potential in a supportive learning environment.
                                endnotes
    \1\ During the 2006-2007 school year, at least 223,190 students in 
the U.S. were subjected to corporal punishment. See U.S. DEPARTMENT OF 
EDUCATION, OFFICE FOR CIVIL RIGHTS, CIVIL RIGHTS DATA COLLECTION 2006, 
http://ocrdata.ed.gov/Projections--2006.aspx (last accessed April 1, 
2010) [hereinafter CIVIL RIGHTS DATA COLLECTION].
    \2\ Alabama, Arizona, Arkansas, Colorado, Florida, Georgia, Idaho, 
Indiana, Kansas, Kentucky, Louisiana, Mississippi, Missouri, New 
Mexico, North Carolina, Oklahoma, South Carolina, Tennessee, Texas, and 
Wyoming. See AMERICAN CIVIL LIBERTIES UNION & HUMAN RIGHTS WATCH, 
IMPAIRING EDUCATION 27 (2009), available at http://www.aclu.org/human-
rights/impairing-education-corporal-punishment-students-disabilities-
us-public-schools [hereinafter IMPAIRING EDUCATION].
    \3\ Alabama, Arkansas, Florida, Georgia, Kentucky, North Carolina, 
Oklahoma, Louisiana, Missouri, Mississippi, South Carolina, Tennessee & 
Texas. See id. at 27.
    \4\ Alabama, Arkansas, Georgia, Oklahoma, Louisiana, Mississippi, 
Tennessee and Texas. See id, at 27.
    \5\ Many school districts may fail to report corporal punishment 
data to the Department of Education, and many incidents may not be 
recorded in the first place. See AMERICAN CIVIL LIBERTIES UNION & HUMAN 
RIGHTS WATCH, A VIOLENT EDUCATION 45-46 (2008), available at http://
www.aclu.org/human-rights-racial-justice/violent-education-corporal-
punishment-children-us-public-schools [hereinafter A VIOLENT 
EDUCATION]; IMPAIRING EDUCATION, at 30-31.
    \6\ See generally A VIOLENT EDUCATION, at 57; IMPAIRING EDUCATION, 
at 4-5.
    \7\ Corporal punishment of children in juvenile justice facilities 
has been prohibited by the Courts of Appeals in several Federal 
Circuits. See Nelson v. Heyne, 491 F.2d 352 (7th Cir. 1974), cert. 
denied 417 U.S. 476 (paddling of children in juvenile detention was a 
violation of the Eighth Amendment's ban on cruel and unusual 
punishment); Morales v. Turman, 562 F.2d 993, 998 (5th Cir. 1977) 
(corporal punishment and physical abuse in juvenile detention 
facilities subject to prohibition as a violation of Eighth Amendment), 
rev'd on other grounds, 535 F.2d 864 (5th Cir. 1976), rev'd and 
remanded, 430 U.S. 322 (1977). See also, Santana v. Collazo, 533 F. 
Supp. 966 (D.P.R. 1982) (corporal punishment against juveniles in 
industrial schools and juvenile camps violates Eighth Amendment and is 
barred ``for any reason''), aff'd in part and vacated in part, 714 F.2d 
1172 (lst Cir. 1983), cert. denied, 466 U.S. 974 (1984). The American 
Correctional Association has also issued standards banning use of 
corporal punishment in juvenile facilities. See also Steven J. Martin, 
Staff Use of Force in United States Confinement Settings, 22 WASH. U. 
J.L. & POL'Y 145 (2006). In addition, corporal punishment and other 
harsh disciplinary practices are prohibited in publicly-funded non-
medical substance abuse and long-term medical care facilities. See, 
e.g., 42 U.S.C. Sec.  290jj (banning corporal punishment in ``non-
medical community-based facilities for children and youth.''); 42 
C.F.R. Sec.  483.13 (banning corporal punishment in long-term medical 
care facilities).
    \8\ CIVIL RIGHTS DATA COLLECTION, supra note 1. See also A VIOLENT 
EDUCATION, at 5 (``In the same year [2006-2007], in the 13 states with 
the highest rates of paddling, 1.4 times as many African American 
students were paddled as might be expected given their percentage of 
the student population. Although girls of all races were paddled less 
than boys, African American girls were nonetheless physically punished 
at more than twice the rate of their white counterparts in those 13 
states during this period'').
    \9\ A VIOLENT EDUCATION, at 72 (interview with Abrea T., Dec. 10, 
2007).
    \10\ A VIOLENT EDUCATION, at 75-76 (interview with Catherine V., 
Nov. 7, 2007).
    \11\ In the 2006-2007 school year, 41,972 students with 
disabilities were subjected to corporal punishment during the 2006-2007 
school year. See CIVIL RIGHTS DATA COLLECTION, supra note 1.
    \12\ See IMPAIRING EDUCATION, at 35-40.
    \13\ IMPAIRING EDUCATION, at 44 (interview with Sarah P. May 22, 
2009).
    \14\ IMPAIRING EDUCATION, at 43 (interview with Anna M., March 9, 
2009).
    \15\ See A VIOLENT EDUCATION, at 75.
    \16\ MICHAEL HICKMON, STUDY: PADDLING VS. ACT SCORES AND CIVIL 
IMMUNITY LEGISLATION (2008), available at http://www.stophitting.com/
index.php?page=paddlingvsact.
    \17\ Id.
    \18\ Id.
    \19\ See A VIOLENT EDUCATION, at 54; IMPAIRING EDUCATION, at 42-43.
    \20\ See A VIOLENT EDUCATION, at 54; IMPAIRING EDUCATION, at 43-44.
    \21\ Society for Adolescent Medicine, Position Paper: Corporal 
Punishment in Schools, 32:5 J. ADOLESCENT HEALTH 385, 388 (2003).
    \22\ A VIOLENT EDUCATION, at 55 (interview with Sean D., Dec. 14, 
2007).
    \23\ See IMPAIRING EDUCATION, at 6.
    \24\ See id. at 5.
    \25\ See A VIOLENT EDUCATION, at 25-29.
    \26\ This is often because students who have been subjected to 
corporal punishment have learned through their experiences that 
physical violence is an appropriate way to handle conflict. The 
American Academy of Pediatrics has noted that ``corporal punishment may 
adversely affect a student's self-image and school achievement and it 
may contribute to disruptive and violent behavior.'' American Academy 
of Pediatrics, Committee on School Health, Corporal Punishment in 
Schools, 106:2 PEDIATRICS 343 (2000), available at http://
aappolicy.aappublications.org/cgi/content/full/pediatrics;106/2/343.
    \27\ See, e.g., Stephen P. Safran & Karen Oswald, Positive Behavior 
Supports: Can Schools Reshape Disciplinary Practices?, 69:3 EXCEPTIONAL 
CHILD. 361 (2003), available at http://www.casenex.com/casenex/
cecReadings/positiveBehavior.pdf.
                                 ______
                                 
    [``A Violent Education: Corporal Punishment of Children in 
U.S. Public Schools,'' a report by the ACLU and Human Rights 
Watch, may be accessed at the following Internet address:]

  www.aclu.org/human-rights-racial-justice/violent-education-corporal-
                 punishment-children-us-public-schools

                                 ______
                                 
    [``Impairing Education: Corporal Punishment of Students 
With Disabilities in US Public Schools,'' a report by the ACLU 
and Human Rights Watch, may be accessed at the following 
Internet address:]

   www.aclu.org/human-rights/impairing-education-corporal-punishment-
                students-disabilities-us-public-schools

                                 ______
                                 
    [Responses to Mr. Scott's questions from Dr. Greydanus 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                ------                                

    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
